<html>
<title> - COMBATING MODERN SLAVERY: REAUTHORIZATION OF ANTI-TRAFFICKING PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       COMBATING MODERN SLAVERY:
                           REAUTHORIZATION OF
                       ANTI-TRAFFICKING PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 31, 2007

                               __________

                           Serial No. 110-83

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
38-640 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. (BOBBY) SCOTT, Virginia    HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                            OCTOBER 31, 2007

                                                                   Page

                           OPENING STATEMENTS

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     2

                               WITNESSES

Katya, Detroit, MI
  Oral Testimony.................................................     4
  Prepared Statement.............................................     6
The Honorable Laurence E. Rothenberg, Deputy Assistant Attorney 
  General, Office of Legal Policy, U.S. Department of Justice
  Oral Testimony.................................................     7
  Prepared Statement.............................................    10
Ms. Marcy M. Forman, Director, Office of Investigations, U.S. 
  Immigration and Customs Enforcement, Department of Homeland 
  Security
  Oral Testimony.................................................    16
  Prepared Statement.............................................    19
Ms. Florrie Burke, Human Trafficking Consultant
  Oral Testimony.................................................    25
  Prepared Statement.............................................    27
Mr. Bradley W. Myles, National Program Director, Polaris Project
  Oral Testimony.................................................    40
  Prepared Statement.............................................    41
Ms. Amy Farrell, Ph.D., Associate Director, Institute on Race and 
  Justice, Principal Research Scientist, Northeastern University
  Oral Testimony.................................................    46
  Prepared Statement.............................................    49
Ms. Anastasia K. Brown, Director, Refugee Programs, Migration and 
  Refugee Services, U.S. Conference of Bishops
  Oral Testimony.................................................    60
  Prepared Statement.............................................    62
Ms. Dorchen A. Leidholdt, Director, Sanctuary for Families' 
  Center for Battered Women's Legal Services, Founding Board 
  Member, Coalition Against Trafficking in Women
  Oral Testimony.................................................    75
  Prepared Statement.............................................    77

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Carolyn B. Maloney, a 
  Representative in Congress from the State of New York..........    29
Letter from the Coalition Against Trafficking in Women...........    31
Article from The Washington Post entitled ``The Damned: Slavery 
  Did Not End With the Civil War. One Man's Odyssey Into a 
  Nation's Secret Shame,'' June 16, 1996.........................    80
Article from PRISM Magazine entitled, ``Portrait of 
  Exploitation,'' September-October 2007 Issue...................   106

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   123
Prepared Statement of the Honorable Darrell Issa, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................   125
Letter from the Honorable Laurence Rothenberg, Deputy Assistant 
  Attorney General, Office of Legal Policy, U.S. Department of 
  Justice, to the Honorable John Conyers, Jr., Chairman, 
  Committee on the Judiciary.....................................   126


                       COMBATING MODERN SLAVERY:
                           REAUTHORIZATION OF
                       ANTI-TRAFFICKING PROGRAMS

                              ----------                              


                      WEDNESDAY, OCTOBER 31, 2007

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:05 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee) presiding.
    Present: Representatives Conyers, Nadler, Scott, Watt, 
Lofgren, Jackson Lee, Waters, Johnson, Ellison, Smith, Coble, 
Chabot, Keller, and King.
    Staff Present: Lou DeBaca, Majority Counsel; Andrea Loving, 
Minority Counsel; and Teresa Vest, Chief Clerk.
    Chairman Conyers. Good afternoon. The Committee will come 
to order. Welcome, everyone.
    This is an incredible and an unusual kind of hearing 
because of the promise of freedom of the 13th amendment, a 
promise written from the suffering of all of those who have 
been held in bondage. Sadly, involuntary servitude lives on in 
this country long after Emancipation Day. Freedom can only be 
advanced through sustained determination. The Civil Rights 
Movement could only occur after the change of peonage and 
exploitation had been broken in the late 1940's by the NAACP 
and, as well, the FBI and the Justice Department's Civil Rights 
Section all working together.
    The same type of collaboration is happening today with 
nonprofit groups and the Government working together to 
confront trafficking for modern slavery. Here in Congress we 
must work to ensure that they have the tools they need to 
fulfill the living promise of the 13th amendment, and that 
essentially is what this hearing is about today.
    The Trafficking Victims Protection Act was a 
groundbreaking, bipartisan effort to update our involuntary 
servitude statutes and to create victim protections. I thank 
for this cooperation the Ranking Member of the Judiciary, Lamar 
Smith.
    It is a bipartisan bill, recently introduced with both 
Chairman Tom Lantos' and Congress Member Chris Smith's 
reauthorizing the statute. The principal features include 
immigration avenues to protect victims and their families from 
retaliation and to ensure that children are protected, 
assistance to U.S. citizens who fall prey to modern slavery or 
who are caught up by pimps or other types of criminal social 
activity, more flexibility in the ability to employ servitude 
statutes and other criminal laws against sex tourism operators 
and others who retaliate against escapees.
    The measure does not, however, create a general Federal 
antipimping statute or import the Mann Act into the trafficking 
and slavery statutes, as some have advocated. It is proper to 
seek compassionate responses for persons in prostitution, but 
we do not need to conflate prostitution and slavery or change 
settled bipartisan definitions of the TVPA and international 
law to accomplish this worthy goal.
    The bill is named after the British parliamentarian William 
Wilberforce, who fought so hard to end the Transatlantic slave 
trade 200 years ago. There is a university named in his honor. 
I am proud that we are following in his footsteps to stand 
against slavery and exploitation in the modern era, and I 
express, again, amazement that it is so prominent and is a 
subject matter of such notoriety that we need to meet this 
afternoon on it.
    I am now pleased to introduce Lamar Smith, the Ranking 
Member of the Judiciary, for his comments.
    Mr. Smith. Thank you, Mr. Chairman.
    Human trafficking is a horrendous crime that exploits the 
innocent while promoting illegal immigration.
    When we first created the anti-trafficking programs and 
immigration benefits for trafficking victims in 2000 with the 
Trafficking Victims Protection Act of 2000, I tried to ensure 
that these programs would not be subject to fraud and abuse and 
would actually help in the prosecution and the conviction of 
human traffickers. I was not the only Member of Congress with 
such concerns, and we were all assured that these programs were 
narrowly written to prevent abuse, but now, 7 years later, when 
the time has come to reauthorize the TVPA, we see that H.R. 
3887, the ``William Wilberforce Trafficking Victims Protection 
Reauthorization Act of 2007,'' is not a straight 
reauthorization. Rather, it shreds the carefully negotiated and 
written standards of the original bill. Supporters of H.R. 3887 
claim that this bill will help law enforcement officials and 
prosecutors stop human trafficking, but it sometimes does the 
opposite.
    For instance, the bill encourages more people to put 
themselves in a position to be trafficked. Many trafficking 
victims start out as willing participants and have plans to 
come illegally to the United States. They either pay coyotes to 
smuggle them across or they sign up for jobs in America despite 
their illegal status.
    H.R. 3887 makes it easier for people who knowingly and 
willfully violate U.S. law to get immigration benefits for 
themselves and for their families. It eliminates the 
requirement that a T-visa applicant must incur, quote, 
``unusual and severe harm if subject to removal.'' The bill 
allows the Secretary of Homeland Security to stay the removal 
of a T-visa applicant if the application, quote, ``sets forth a 
prima facie case for approval.'' Such a low threshold approved 
may result in many stays of removal for illegal aliens with 
dubious trafficking claims.
    In addition, the bill requires the Secretary of Homeland 
Security, when deciding whether or not the T-visa applicant 
would suffer extreme hardship if removed from the U.S., to 
consider whether the applicant's country of removal can 
adequately address security concerns and the mental and 
physical health needs of the aliens and their families. Many 
countries are unlikely to meet such standards.
    The bill also hinders DHS' ability to remove illegal 
immigrants who are under 18 or who simply claim to be so. In a 
world with suicide bombers and gang members as young as 16 and 
17 years old, this is a troubling provision. DHS will be able 
to promptly return home illegal immigrants under the age of 18 
from Mexico and Canada, apprehended along the border, only 
after DHS has signed a special repatriation agreement with 
Mexico or with Canada and has determined on a case-by-case 
basis if the aliens are nontrafficking victims or if they even 
have an undefined fear of being trafficked and if they meet 
other requirements. In all other cases, DHS will be barred from 
subjecting illegal aliens under the age of 18 to expedite a 
removal or allowing them to return home voluntarily.
    The unaccompanied alien minor provisions will make it 
exceedingly difficult for DHS to remove any illegal immigrants 
apprehended along the border, at ports of entry or in the 
interior who are under 18 or who claim to be under 18, and the 
bill's provisions prohibit the exclusive use of radiographs to 
determine the real age of illegal immigrants claiming to be 
under 18, greatly raising the prospect that illegal immigrants 
will fraudulently claim to be minors in order to access all of 
the benefits of the bill.
    The provisions require that unaccompanied minors in the 
Government's custody cannot be put in secure facilities and 
that they can be outplaced with persons who are not even family 
members. This could allow illegal immigrant minors to escape 
DHS supervision and force DHS to release many gang members, 
potential terrorists and other dangerous aliens.
    The bill reverses longstanding immigration law and requires 
that taxpayers pay for the lawyers and for other representation 
of the illegal alien minors.
    In addition, this bill creates problems for law enforcement 
officials and for prosecutors. The bill adds provisions that 
make it harder for a prosecutor to prove that criminals force 
victims to work in sweatshops or as prostitutes. At the same 
time, the bill lowers the criminal penalty for trafficking for 
the purpose of forced labor from 5 years to 1 year.
    If the purpose of this bill is to punish human traffickers 
for enslaving victims and to dissuade others from committing 
these crimes in the future, why reduce the penalties? The 
statute's outlying retaliation against people who help Federal 
authorities investigate trafficking cases and sex tourism also 
now have lower penalties than current law. Incredibly, this 
bill creates an escape clause for people who travel abroad to 
have sex with children, and it allows these criminals to not 
pay for their crimes if they believe the child is over 18.
    Why is a bill that is meant to protect women and children 
from being enslaved in our country and abroad being used to 
create defenses to sex tourism? In short, H.R. 3887 makes it 
harder to bring traffickers to justice, and it encourages the 
violation of our immigration laws.
    Thank you, Mr. Chairman, for the extra time, and I yield 
back.
    Chairman Conyers. Well, we welcome your comments and take 
it that we and our staffs have a great deal of work to continue 
to do on this measure as we move it through the Judiciary 
Committee, and I am happy to work with the distinguished 
gentleman from Texas.
    We have a number of witnesses--the Director of the Office 
of Investigations of Immigration and Customs Enforcement, Ms. 
Marcy Forman; Safe Horizon from New York, Florrie Burke; the 
Institute on Race and Justice, Dr. Amy Farrell; the Sanctuary 
for Families' Center for Battered Women's Legal Services, 
Dorchen Leidholdt, Director; the Director of Refugee Programs 
of the Migration and Refugee Services of the U.S. Conference of 
Catholic Bishops, Anastasia Brown; the National Program 
Director of the Polaris Project, Bradley Myles; the Deputy 
Assistant Attorney General of the Office of Legal Policy of the 
United States Department of Justice, Laurence Rothenberg--I 
think I called Florrie Burke of Safe Horizon--and from Detroit, 
Michigan, we have a witness whom we will call Katya.
    She will be our first witness this afternoon. For her 
protection, she is testifying only under that name. This brave 
young woman will describe her own experience with human 
trafficking and how exploiters use false hope to trap people in 
modern slavery.
    We welcome you to this hearing. I know you are in a room 
full of people and two, four, six, seven other witnesses, and 
then you are called to start it off. Please forget all of that. 
I want you to be your usual, friendly, personable, direct-
speaking self, and feel comfortable among us here on the 
Judiciary Committee this afternoon.
    You can begin your testimony whenever you want.

                TESTIMONY OF KATYA, DETROIT, MI

    Katya. Thank you.
    Good afternoon. I would like to thank the House Committee 
on the Judiciary for the opportunity to speak on behalf of 
trafficking victims. This is my story.
    I did not work as a maid or on a farm. I was not made to be 
a prostitute. I came from another country, but I will try to 
speak for all survivors on trafficking no matter what they were 
made to do or where they were from, because our desire is a 
universal one, the desire for freedom. Please call me Katya. I 
cannot use my real name today, and I am also in disguise 
because I fear that my captors will recognize me and will place 
my life and those of my family in danger.
    In the fall of 2003, I was a university student in the 
Ukraine. I found out about a summer program that allowed me to 
come to the U.S. and study English. I was very excited. I 
applied for the program and obtained a student visa. I found 
out that I would be working as waitress in Virginia Beach.
    In May 2004, I traveled to the U.S. I flew from Kiev to 
Washington, D.C. When I landed, I was surprised to see Michael 
Aronov and Alex Maksimenko, people who I knew from the Ukraine, 
at the airport in Washington, D.C. They told me that I would no 
longer be going to Virginia but not to worry because they had 
things worked out, and I would be going to Detroit. They gave 
me the bus ticket to Detroit.
    When the bus arrived in Detroit, I saw Michael, Alex and 
another Ukrainian man waiting for me. Once I got off the bus in 
Detroit, everything changed. They took me in the hotel and took 
all of my identity documents from me. They told me that they 
needed them in order to get a State identification card for me. 
They told me that I owed them $12,000 for travel to the U.S. 
and $10,000 for identification documents and that I only had a 
short time to pay them off. I quickly learned how I would have 
to pay it off.
    They told me I was going to have to work at a strip club 
called Cheetah. They forced me to work 6 days a week for 12 
hours a day. I could not refuse to go to work or I would be 
beaten. I had to hand over all of my money to Michael and Alex. 
I was often yelled at for not making enough money, and I had a 
gun put to my face. Every week, I would hand over around $3,000 
to $4,000 to Alex and Michael. I was their slave.
    My captors kept me in an apartment with one of the other 
girls. I was never allowed out of the apartment by myself. I 
was driven to work by Michael or Alex, sometimes both, every 
day except when they were on vacation. Then they hired a car 
service for us. There was no phone in our apartment. Sometimes 
I was forced to call home to talk to my mom and to tell her 
that I was okay. Someone was always listening in on the calls 
so I could not tell her the truth, but I think she could tell 
by my voice that I was in trouble. I never felt safe. Between 
me and the other girl, we had only one key to our apartment. 
Michael and Alex also had a key. Sometimes they would just come 
into our apartment, without knocking, even if we were in the 
shower or were sleeping. They would also come in our apartment 
when we were not there. I knew that they did this because I 
found my things moved around. I think they were looking around 
to make sure we did not keep any money.
    The girl I lived with and I were trying to keep some money 
to escape. Our captors would give us money at the store, and we 
would have to give them any leftover money back. To try to keep 
some money for our escape, we would slide money into candy 
boxes. Once we got back to our place, we would hide the money 
in a hole outside of our apartment.
    My enslavement finally ended when I escaped with the girl 
that I lived with. I was terrified that Alex and Michael were 
going to catch us. When we escaped from our apartment, we put 
the stuff we wanted to take with us in garbage bags in case 
Alex and Michael showed up. Then we could just act like we were 
taking out the trash. We escaped with the help of someone who 
believed us. The other girl was confident in a man who came to 
the strip club regularly and who she felt she could trust. When 
he found out what happened, he agreed to help us. We were 
scared, but we went with him to ICE because they were supposed 
to help escapees. It was intimidating, but we told our story. 
The agents not only believed us and helped us, but they went 
that night and rescued two other women who had also been 
enslaved. They arrested Alex and Michael before they could run 
away or hide any evidence. Once they were arrested, I felt safe 
for the first time.
    Since I have escaped, I have been learning English on my 
own and have been working full time. I really want to go back 
to school and finish my degree in sports medicine, but the 
money for college is an issue.
    I am lucky. I escaped and survived being a victim of human 
trafficking. Many other victims right now--they need help. 
Traffickers should not be able to exploit the student visa 
process. I was aware of human trafficking. I knew about it. I 
checked the program out and talked to people who had used the 
same company and who came back safely. Still, I was a victim.
    Businesses in the U.S. should not be able to make money off 
of slaves simply because they have someone else bringing them 
in to work. Not only did Alex and Michael make a lot of money 
by exploiting me, but so did the strip club.
    Finally, when I left the Ukraine in May of 2004 and I said 
goodbye to my mother, I expected to see her again in a few 
months. Life in the U.S. is hard without my mom being next to 
me. I never wanted to be here this long, but it is not safe for 
me to return to the Ukraine. I miss my mom, and I worry about 
her safety since Alex's dad, Veniamin, is still in the Ukraine. 
If the trafficking law had allowed for my mom to come and live 
with me in the USA, it would have helped me and would have 
protected her.
    Please help future victims like me. Do not let this happen 
to anyone else.
    Thank you.
    [The prepared statement of Katya follows:]

                      Prepared Statement of Katya

    Good afternoon. I would like to thank the House Committee on the 
Judiciary for the opportunity to speak on behalf of trafficking 
victims. This is my story. I did not work as a maid, or on a farm. I 
was not made to be a prostitute. I came from another country. But I 
will try to speak for all survivors of trafficking, no matter what they 
were made to do or where they are from. Because our desire is a 
universal one--the desire for freedom.
    Please call me Katya. I cannot use my real name today and I am also 
in disguise because I fear that my captors will recognize me and place 
my life and that of my family in danger.
    In Fall 2003 I was a university student in Ukraine. I found out 
about a summer program that would allow me to work in the United States 
and study English. I was very excited. I applied for the program and 
obtained a student visa. I found out that I would be working as a 
waitress in Virginia Beach.
    In May 2004 I traveled to the United States. I flew from Kiev to 
Washington D.C. When I landed, I was surprised to see Michael Aronov 
and Alex Maksimenko, people I knew from Ukraine, at the airport in 
Washington D.C. They told me that I would no longer be going to 
Virginia but not to worry because they had worked things out and I 
would be going to Detroit. They gave me a bus ticket to Detroit.
    When the bus arrived in Detroit I saw Michael, Alex, and another 
Ukranian man that I knew, Veniamin Gonikman waiting for me. Once I got 
off the bus in Detroit, everything changed. They took me to a hotel and 
took all of my identity documents from me. They told me that they 
needed them in order to get a state identification card for me. They 
told me that I owed them $12,000 for travel to the United States and 
$10,000 for the identification document, and that I only had a short 
time to pay them off.
    I quickly leaned how I would have to pay it off. They told me I was 
going to have to work at a strip club called Cheetah's. They forced me 
to work six days a week for twelve hours a day. I could not refuse to 
go to work or I would be beaten. I had to hand over all of my money to 
Michael and Alex. I was often yelled at for not making enough money or 
had a gun put to my face. Every week I handed over around $3000-$4000 
to Alex and Michael. I was their slave.
    My captors kept me in an apartment with one of the other girls. I 
was never allowed out of the apartment by myself. I was driven to work 
by Michael or Alex (sometimes both) every day, except when they were on 
vacation. Then, they hired a car service for us. There was no phone in 
our apartment. Sometimes I was forced to call home to talk to my mom 
and tell her I was okay. Someone was always listening in on the calls 
so I could not tell her the truth, but I think she could tell by my 
voice that I was in trouble.
    I never felt safe, between the other girl and I we only had one key 
to our apartment. Michael and Alex also had keys. Sometimes they would 
just come into our apartment without knocking, even if we were in the 
shower or sleeping. They would also come into our apartment when we 
weren't there. I know that they did this, because I found my things 
moved around. I think they were looking around to make sure we hadn't 
been keeping any of the money. The girl I lived with and I were trying 
to keep some money to escape. Our captors would give us money at the 
store and we would have to give them any leftover money. To try to keep 
some money for our escape we would slide some money into candy boxes. 
Once we got back to our place we hid the money in a hole outside in 
front of the apartment.
    My enslavement finally ended when I escaped with the girl that I 
lived with. I was terrified that Alex and Michael were going to catch 
us. When we escaped from our apartment we put the stuff we wanted to 
take with us in garbage bags in case Alex or Michael showed up, that 
way we could just act like we were taking out the trash.
    We escaped with the help from someone who believed us. The other 
girl confided in a man who came to the strip club regularly and who she 
felt she could trust. When he found out what happened, he agreed to 
help us. We were scared but went with him to ICE because they were 
supposed to help escapees. It was intimidating, but we told our story. 
The agents not only believed us and helped us, but they went that night 
and rescued two other women that had also been enslaved. They arrested 
Alex and Michael before they could run away or hide the evidence. Once 
they were arrested, I felt safe for the first time.
    Since I escaped I have been learning English on my own and working 
full time. I really want to go back to school and finish my degree in 
sport medicine, but the money for college is an issue.
    I am lucky, I escaped and survived being a victim of human 
trafficking. Many others are victims right now, they need help. 
Traffickers should not be able to exploit the student visa process. I 
was aware of human trafficking, I knew about it. I checked the program 
out and talked to people who had used the same company and come back 
safely. Still I was victim.
    Businesses in the United States should not be able to make money 
off of slaves simply because they have someone else bring them into 
work. Not only did Alex and Michael make a lot of money by exploiting 
me, so did the strip club.
    Finally, when I left Ukraine in May of 2004 and I said good-bye to 
my mother, I expected to see her again in a few months. Life in the 
United States is hard without my mother being with me. I never wanted 
to be here this long, but it is not safe for me to return to Ukraine. I 
miss my mom, and I worry about her safety since Alex's dad, Veniamin, 
is still in Ukraine. If the trafficking law had allowed for my mother 
to come and live with me in the United States it would have helped me 
and protected her.
    Please help future victims like me, do not let this happen to 
anyone else. Thank you.

    Chairman Conyers. You are a very brave person, Katya. We 
thank you for coming here to tell your story. We want you to 
know you have a lot of people who are working to end the 
circumstances that you have reported to us here today.
    I would like now to call on the Deputy Assistant Attorney 
General in the Department of Justice's Office of Legal Policy, 
Laurence Rothenberg. Among his responsibilities are helping to 
develop the Department's legal policy regarding child 
exploitation, obscenity, violence against women, and 
trafficking in persons, among other issues.
    We welcome you to the Committee today, sir.

   TESTIMONY OF THE HONORABLE LAURENCE E. ROTHENBERG, DEPUTY 
   ASSISTANT ATTORNEY GENERAL, OFFICE OF LEGAL POLICY, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Rothenberg. Thank you, Mr. Chairman.
    Good afternoon, Chairman Conyers and Ranking Member Smith. 
Thank you for the opportunity to present an overview of efforts 
to combat human trafficking by the Department of Justice.
    The Department has undertaken a comprehensive, robust and 
aggressive strategy to fight this terrible crime that includes 
the infiltration of the dark places of the underground economy 
in this country, the rescue of victims and the prosecution of 
perpetrators. In addition, our work includes comprehensive 
training, the design of proactive investigative methodologies, 
the coordination with multidisciplinary task forces in 42 U.S. 
cities, the development of partnerships with nongovernmental 
organizations and with our sister agencies, including 
participation in the Human Smuggling and Trafficking Center and 
the Senior Policy Operating Group, the funding of research to 
better help us understand the nature and the scope of the 
problem of human trafficking, and the awarding of grants to 
victim services organizations, all under the concept we call a 
``victim-centered approach.'' The reward of this effort is the 
knowledge that our efforts support the foundational values of 
our Nation--the liberty promised by the 13th amendment to our 
Constitution.
    It is an honor to appear before this Committee to talk 
about the Department's anti-trafficking efforts as you consider 
H.R. 3887, the William Wilberforce Trafficking Victims 
Protection Reauthorization Act of 2007. At the center of our 
efforts to fight trafficking is the TVPA of 2000. Reauthorizing 
the TVPA is, therefore, vital to the Department's continued 
success in fighting this crime.
    Using the tools provided to the Department under that 
legislation and its subsequent reauthorizations, the 
Department's multifaceted approach to combating human 
trafficking has yielded significant results.
    Between fiscal years 2001 and 2006, the Department's Civil 
Rights Division increased by 600 percent the number of human 
trafficking cases filed as compared to the same immediately 
preceding time period. The Civil Rights Division has increased 
by 10 percent the number of human trafficking investigations 
opened in fiscal year 2007 from the preceding year, an all-time 
high. For the fourth year in a row, the Division and the U.S. 
Attorney's Offices around the country have convicted a record-
high number of human trafficking defendants. In addition, in 
fiscal year 2007, the Innocence Lost National Initiative, led 
by the FBI and the Department's Child Exploitation and 
Obscenity Section, has led to 125 investigations, 300 arrests, 
55 indictments, 106 convictions, and most importantly, 181 
children rescued from prostitution.
    The 42 human trafficking task forces, funded by our Bureau 
of Justice Assistance, have identified 1,500 potential victims 
of human trafficking since the beginning of the program through 
the last fiscal year. In addition, the Office of Victims of 
Crime funds services agencies that work collaboratively with 
those human trafficking task forces. In addition to providing 
services to over 1,900 victims prior to their official 
certification as victims, we have also trained more than 65,000 
victim services practitioners to identify victims and to 
provide them those services.
    Finally, we engage in quite a bit of outreach. For example, 
in the last year, attorneys in the Civil Rights Division spoke 
more than 130 times at public events or training sessions. We 
also engage in research. We are funding research at 
Northeastern University to design and to implement a national 
human trafficking reporting system. In the last fiscal year, 
the National Institute of Justice funded three new research 
projects to assist in the understanding of the phenomenon, its 
perpetrators and its effect on victims.
    As I noted above, the Department strongly supports 
reauthorizing the TVPA. We commend the Committee for its 
leadership on this important issue. With your support, we can 
continue to build our human trafficking program to identify and 
to prosecute human trafficking crimes and to restore the 
victims of this terrible crime.
    I look forward to answering your questions.
    [The prepared statement of Mr. Rothenberg follows:]

       Prepared Statement of the Honorable Laurence E. Rothenberg

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Conyers. Thank you very much.
    The Director of the Office of Investigations at the 
Immigration and Customs Enforcement is Marcy Forman. Her office 
not only has conducted successful investigations in the United 
States and abroad but has also been a leader in seeking to 
incorporate victim witness protections into the Federal law 
enforcement response to trafficking.
    We welcome you to the proceedings, and we understand that 
you have a short promotion that you would like to play at this 
time.
    Ms. Forman. Yes.
    Chairman Conyers. Please. Welcome.

       TESTIMONY OF MARCY M. FORMAN, DIRECTOR, OFFICE OF 
   INVESTIGATIONS, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Forman. Thank you.
    Good afternoon, Chairman Conyers, Ranking Member Smith and 
Members of the Committee.
    I have a public service announcement that I would like you 
all to view that was put together by ICE.
    [Film shown.]
    Ms. Forman. Thank you. Let me take you back to the early 
hours of a June morning of 2004. On that morning, ICE agents 
executed search warrants at three seemingly middle-class 
bungalows in suburban New York. What they found was one of the 
most horrific cases of human trafficking and slavery in recent 
U.S. history.
    Inside those homes were 69 Peruvians, including 13 
children, being held in filthy, overcrowded and unsanitary 
conditions, who were forced to work in janitorial and factory 
operations. These people were brought to the United States by a 
couple who identified their victims in Peru and who had 
provided them false documents and who had helped them enter the 
United States.
    Fortunately, the victims in this case were rescued, and the 
lead defendant was sentenced to 15 years in a Federal prison. 
After the enforcement action, ICE worked in concert with the 
Department of Health and Human Services and NGOs. I am pleased 
to say Florrie Burke from Safe Horizons, who is sitting with 
me, was the referer in this case and identified an additional 
25 other human trafficking victims.
    It is my privilege to appear before you today to discuss 
ICE's comprehensive efforts against human traffickers who 
exploit women, children and men, a form of modern day slavery.
    ICE integrates Immigration and Customs authorities to 
investigate criminal organizations on multiple fronts, and in 
doing so, it is able to identify, disrupt and dismantle 
organizations. The most critical piece of legislation 
supporting our efforts in fighting human trafficking is the 
Trafficking Victims Protection Act of 2000 and the tenets of 
prevention, protection and prosecution.
    Let me take this opportunity to highlight ICE's 
investigative efforts and successes in combating human 
trafficking. In fiscal years 2006 and 2007, ICE initiated 652 
human trafficking investigations, an increase of over 21 
percent from the previous 2 years. During the same period, ICE 
investigative efforts have resulted in 341 arrests, 230 
indictments and 190 convictions related to human trafficking. 
Examples of the successes include:
    Several weeks ago, the ICE office in Newark rescued 21 West 
African victims of labor trafficking--14 women and 7 juveniles. 
The youngest was 12 years old. Based on information provided by 
one of the victims, ICE was able to identify and to rescue 
additional victims in three separate locations, resulting in 22 
victims who were identified and rescued in this case. Three 
traffickers were arrested and jailed.
    In a Special Agent in Charge New York case, based on a 
referral from our ICE office in Mexico City, ICE was able to 
locate and to rescue several victims involved in sex 
trafficking. This investigation resulted in the sentencing of 
each of the two primary defendants to 50 years incarceration 
each, which is the longest sentence since the enactment of the 
TVPA.
    Trafficking is big business for organized criminal 
syndicates as well as for informal networks and for individuals 
who seek to gain profit from the exploitation of others. ICE 
makes every effort to not only find and rescue victims but to 
target and cripple the financial motivations and infrastructure 
that allow human trafficking organizations to thrive.
    Given the international scope of human trafficking, ICE has 
an established global reach that has allowed us to foster 
strong international relationships through over 50 offices 
overseas, located in 39 countries. Our investigations begin in 
the source countries where trafficking begins, it continues 
into transit countries, and it concludes at the destination 
countries.
    Human trafficking cases require law enforcement agencies to 
be victim-oriented. ICE has trained and deployed over 300 
victim witness coordinators. The testimony of a victim is 
critical to the success of a prosecution. Victims are our best 
evidence of the crime. Yet, a victim should not and cannot be 
treated simply as a piece of evidence. We in law enforcement 
have a responsibility to treat victims fairly, with compassion 
and with attention to their needs.
    ICE, in conjunction with U.S. Citizenship and Immigration 
Services, are the sole agencies charged with providing short-
term immigration relief, also known as ``continued presence.'' 
It allows certified victims of trafficking to remain in the 
United States. In each of the cases cited, we granted the 
victims continued presence, which is part of our victim-
centered approach.
    Under an ICE initiative titled ICE TIPS, ICE offices 
conduct outreach to law enforcement agencies and NGOs to expand 
the awareness of trafficking cases. ICE domestic field offices 
and ICE attache offices located overseas have provided training 
to over 9,000 staff from 323 NGOs and over 7,000 foreign law 
enforcement personnel from 867 agencies worldwide. ICE has 
established a toll-free tip line for reporting human 
trafficking leads as well as developed outreach materials for 
law enforcement and NGOs. These materials include, to my right, 
the training video and laminated, wallet-sized cards with human 
trafficking indicators that are available in five different 
languages.
    ICE is committed to dedicating the resources necessary to 
make human trafficking a crime of the past.
    Thank you for inviting me, and I will be glad to answer any 
questions.
    [The prepared statement of Ms. Forman follows:]

                 Prepared Statement of Marcy M. Forman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Conyers. Thank you very much.
    We will make those displays, without objection, a part of 
our record.
    Psychologist Florrie Burke has recently stepped down as the 
head of the anti-trafficking programs at the social services 
provider Safe Horizon in New York City. She now consults with 
governments and with nonprofit organizations on best practices 
for victim service provisions and assists with the litigation 
of criminal and civil cases across the country.
    We are pleased to have you with us today.

                  TESTIMONY OF FLORRIE BURKE, 
                  HUMAN TRAFFICKING CONSULTANT

    Ms. Burke. Thank you.
    Chairman Conyers, Ranking Member Smith, distinguished 
Members of the Judiciary Committee, my name is Florrie Burke, 
and I am a consultant from New York City where, until recently, 
I was the Senior Director of International Programs at Safe 
Horizon, the largest crime victim agency in the country. It is 
my great privilege to testify before this Committee on behalf 
of the survivors of trafficking who have told me of their 
ordeals, their fears and, finally, their freedom.
    This reauthorization act of 2007 builds on the foundation 
of the TVPA 2000 in ways that are in keeping with the victim-
centered approach to the law. In the brief time I have today, I 
would like to summarize some points that arise from my 
experience of working directly with hundreds of victims of 
trafficking and modern day slavery over the past 10 years, 
beginning with the deaf Mexican peddling case of 1997 and 
including individuals enslaved as nurses, ship welders, bar 
girls, farm workers, prostituted women, massage parlor workers, 
hotel maids, dancers, factory workers, and domestic workers, 
among others.
    What these individuals share in common is that, instead of 
the legitimate work and fair treatment promised them, they were 
deceived and devalued by the schemes of traffickers. Human 
rights abuses were perpetrated upon them in our country by 
people whose greed has allowed them to turn human beings into 
commodities.
    One: ensuring assistance for all victims of trafficking in 
persons. Until this reauthorization bill of 2007, the needs of 
U.S. citizens, especially youth who have been sexually 
exploited, has not received adequate attention. This bill 
highlights both the focus needed on the trafficking of U.S. 
citizens and the concerted effort needed to address trafficked 
children. However, this is not the time to turn away from 
foreign-born victims of trafficking and focus only on U.S. 
citizens. This is not an either/or situation. Both are equally 
important and deserving of our attention.
    Without substantive research, it is impossible to say with 
certainty if there is in fact a disparity in the types, quality 
and number of service programs available for either group. This 
necessary research, the study outlined in section 214, should 
examine the funding of programs, the utilization of the funds 
and the efficacy, and it should look at different types of 
programs. Taking away funding from one group of victims to 
support programs for another group is not a solution. There 
already exists programs that have the expertise in working with 
exploited youth and U.S. citizens and others with expertise in 
working with foreign victims of slavery of all types. These 
groups need to come together, look at best practices and need 
to strategize ways of working that will help meet the goal of 
identifying and helping more victims.
    Two: the important immigration provisions detailed in the 
section ensuring availability of possible witnesses and 
informants must remain if we are to increase the rate of 
prosecutions and put a stop to this crime. Threats against a 
family are often the strongest deterrent to cooperation on the 
part of a witness. Allowing a family in danger of retaliation 
to join the victim will enable the victim witness to 
participate without fear and distraction.
    We can never forget the bravery of the survivors of the 
brutal sex trafficking case, U.S. v. Carreto. There, 
traffickers never expected them to testify. Their children were 
being held hostage, but these women had worked long and hard 
with a dedicated team of law enforcement, prosecutors and 
service providers, and they were determined to seek justice for 
themselves and for other women in similar situations. These 
traffickers received sentences of 50 years.
    Assisting those victims who are not able to participate in 
a law enforcement interview due to the level of their trauma is 
both necessary and humane. We do not want any more victims to 
be hospitalized for attempts at self-harm and escalated mental 
health problems due to having to recount brutal details of the 
case to law enforcement before the victims are emotionally able 
to do so.
    We urge you to keep all immigration provisions in this bill 
as they were clearly designed to ensure that survivors can more 
easily access protections and can assist in investigating and 
in prosecuting their traffickers.
    Three, information for work-based nonimmigrants on legal 
rights and resources and the provisions regarding the 
registration of foreign recruiters are effective mechanisms to 
combat labor trafficking. The current abuse is often seen in 
guest worker programs.
    During an interview just last week, an H-2A guest worker 
told me, ``It was more than fear. It was ignorance of the U.S. 
We did not know how to make a phone call; did not know anyone 
here; did not know where to get help. We did not know the laws. 
We did not even know exactly where we were. We had no access to 
the world.''
    The development of information is a major step in ensuring 
that workers will be protected, not exploited. If the welders 
in Oklahoma from the John Pickle case had been given this 
information and if the sheepherders in Idaho and the 
agricultural workers in south Florida had been provided with 
this help, employers would be held accountable, and workers 
would do the work they had been promised with the results they 
expected.
    I support, in large part, the Wilberforce Reauthorization 
Act of 2007, and I urge this Committee and your Congressional 
colleagues to keep the victim as the focus. This bill should 
reflect every victim every time. We cannot and we must not stop 
now in our efforts. We must use our past work as a foundation 
to continue, but to do better, to evaluate and to strategize 
and to put our considerable knowledge and expertise into 
working to free every man, every woman, every child, U.S. 
citizen and immigrant victim of slavery alike.
    Thank you for your attention and for the invitation to 
appear here today.
    [The prepared statement of Ms. Burke follows:]

                  Prepared Statement of Florrie Burke

    Chairman Conyers, Ranking Member Smith and Distinguished Members of 
the Judiciary Committee. My name is Florrie Burke and I am a Human 
Trafficking Consultant from New York City. Until recently, I was the 
Senior Director of International Programs at Safe Horizon, the largest 
victim service agency in the country where I oversaw the Anti-
Trafficking Program, the Survivors of Torture Program, and the 9/11 
Community Trauma Response. Among other current projects, I am 
consulting to New York State agencies responsible for implementing 
services mandated by the new state law. I also consult to a number of 
Anti-Trafficking programs nationally and internationally and serve as 
an expert on various cases. It is my great privilege to testify before 
this committee on behalf of the hundreds of survivors of trafficking 
who have told me of their ordeals, their fears and finally, their 
freedom. I hope to also give voice to those victims who have not yet 
been discovered, identified or liberated.
    Let me begin by congratulating Mr. Conyers, Mr. Lantos and co-
sponsors of the William Wilberforce Trafficking Victims Protection 
Reauthorization Act of 2007. This act reflects the broad understanding, 
compassion and intelligence necessary to fight this crime. The Victims 
of Trafficking and Violence Protection Act of 2000 and the 
Reauthorization Acts of 2003 and 2005 have greatly impacted the lives 
of many who were led to believe that legitimate work, education, and a 
chance to earn a decent wage were available to them. Instead, they were 
deceived and devalued by the schemes of traffickers. Because of our 
laws and your hard work and diligence, life is better now for these 
survivors. Consider Ivana who answered an ad in her local paper in 
Eastern Europe. She was working as a teacher, but not earning enough to 
support herself and her aging, sick parents. The ad described a job in 
the U.S. as a hostess in a restaurant. Instead, Ivana was forced into a 
nightmare of prostitution with multiple rapes a daily occurrence. A 
customer rescued her and brought her to a service provider. After a 
lengthy process, but while receiving the necessary supports and 
assistance, Ivana's traffickers are in jail; she is now employed as a 
paralegal and has her sights set on a career as an attorney.
    While acknowledging the advances of the field, the important 
provisions of the law and the Reauthorizations in 2003 and 2005, there 
are still many fewer victims being discovered than we had thought. 
There are surprisingly small numbers of children being identified as 
victims of trafficking despite the lurid headlines and stories in the 
media. The very law enforcement entities that might identify these 
cases need greater understanding of the issues.
    My introduction to Modern Day Slavery was the Deaf Mexican case of 
1997, involving 60 people held in a peddling ring. (U.S. v. Paoletti) 
After several years of working on that case, the multiple issues of 
trafficking were apparent: recruitment, transportation, abuse, 
violence, psychological coercion, fraud, deception, immigration issues, 
document withholding, wage and hour elements and much more. This case 
provided an opportunity to use existing social services and enhance 
them by developing and adding innovative programs to address the 
specific needs of those who had been enslaved. We did not start from 
scratch--we used expertise available to us and built on it. In Section 
214, Ensuring Assistance For All Victims Of Trafficking In Persons, the 
bill references the need to develop, expand and strengthen victim 
service programs. Because human trafficking is a hidden crime, it has 
taken years to develop a coordinated response and to create the 
infrastructure that can deal with it. Government and non-government 
agencies have proven that they can work together to address victim 
needs and the punishment of traffickers. This is not the time to 
dismantle existing programs by switching focus to a different 
population group. It is vitally important that U.S. citizens receive 
the attention they so deserve. It is also critical that the concerted 
effort to address the needs of trafficked children as outlined in this 
bill be recognized and carried forth. Until this Reauthorization bill 
of 2007, the needs of U.S. citizens, especially youth that have been 
sexually exploited, have not received adequate attention. However, it 
is not necessary to reinvent the wheel in order to serve these victims 
of this egregious form of slavery. There already exist programs that 
have expertise in working with exploited youth and programs that have 
expertise in working with foreign victims of human trafficking of all 
types. These groups need to come together in partnership with 
leadership from government agencies and then look at best practices and 
strategize ways of working that will help meet the goal of identifying 
more victims.
    Unfortunately, a divide exists between assistance for immigrant 
victims of trafficking and citizen victims of trafficking. Without 
substantive research into this, it is impossible to say with certainty 
if there is, in fact, a disparity in the types, quality and number of 
service programs available for either group. This necessary research, 
the Study outlined in Section 214, should examine the funding of 
programs, the utilization of funds, the efficacy of programs and should 
also look at different types of programs. Taking away funding from one 
group of victims to support programs for another group of victims is 
not a solution. It is incumbent upon us to figure out better ways of 
utilizing resources. Certain funding restrictions appear to be 
antithetical to the goal of finding exploited youth and prosecuting 
their traffickers. To do that, partnerships must be created with those 
programs that know how to reach exploited youth through street 
outreach, education, counseling, peer support and other evidence based 
practice. Without these partnerships, victim service agencies and 
others will have difficulty reaching a group of youngsters who are 
afraid, dependent on traffickers and distrustful of law enforcement and 
providers. This is not the time to turn away from foreign born victims 
of trafficking and focus only on U.S. citizens. This is not an either-
or situation. Both are equally important and deserving of full 
attention. These crimes are occurring in our country; the human rights 
abuses cannot be overlooked.
    It is critical for the esteemed members of this committee and your 
Congressional colleagues to recognize the remarkable work of the DOJ 
prosecutors, OVC, ICE, FBI, DOL, HHS and countless NGO providers in 
addressing modern day slavery. We all want to stop the scourge of human 
beings being used as commodities and as pathways to feed the greed of 
their traffickers. We can not and must not stop now in our efforts; we 
must use this work as a foundation to continue, to do better, to 
evaluate and strategize and put our considerable knowledge and 
expertise into working to free every US citizen and immigrant victim of 
slavery.
    In my work with survivors of Human Trafficking, I have interviewed 
individuals enslaved as nurses, ship welders, bargirls, prostituted 
women, peddlers, massage parlor workers, hotel maids, dancers, migrant 
farm workers, factory workers, and domestic workers, among others. 
These people put themselves and their families at great risk when they 
agree to cooperate, tell their stories and assist in the prosecution. 
We can never forget the bravery of the survivors of the sex trafficking 
case, U.S. v. Carreto. Their traffickers never expected them to 
testify, their children were being held hostage, but these women had 
worked long and hard with a dedicated team of law enforcement, 
prosecutors and service providers and were determined to seek justice 
for themselves and for other women in similar situations. These 
traffickers received sentences of 50 years.
    The important immigration provisions of the Reauthorization bill of 
2007, Subtitle A-Ensuring Availability of Possible Witnesses and 
Informants must remain if we are to increase the rate of prosecutions 
and put a stop to the crime. One example of the import of these 
provisions concerns the threats made by traffickers against the 
victim's family, Section 205. We know these to be very real threats and 
often the strongest deterrent to cooperation on the part of a witness. 
Allowing parents and siblings who are in danger of retaliation because 
of the victim's cooperation with law enforcement to join the victim 
will greatly help in the prosecution, as the victims will not have to 
be constantly afraid and distracted from their roles as a witnesses. 
Section 201 will assist those victims who are not able to participate 
in a Law Enforcement interview due to their trauma apply for 
immigration relief regardless, based on the elements of their 
trafficking situation. This is both necessary and humane. Section 206 
asks that the regulations regarding adjustment of status to permanent 
residence for T visa holders be issued according to the TVPRA 2005. We 
urge the release of these regulations as many survivors of trafficking 
have had T visas for more than the three year requirement and have 
complied and cooperated with all government entities. We urge you to 
keep all immigration provisions in this bill as they are clearly 
designed to ensure that survivors of trafficking can more easily access 
protections and assist in investigating and prosecuting their 
traffickers.
    As an expert witness in several cases of workers brought to the 
U.S. on employment based non-immigrant visas, and through extensive 
interviews with the workers, I have learned of the exploitation and 
abuse suffered at the hands of their employers. These workers were 
isolated, enslaved and uninformed as to their rights in this country. 
In the case of ship welders in Oklahoma, (EEOC v. John Pickle Co.) the 
men from India were highly trained engineers, machinists and welders 
possessing advanced certification of their skills. They were locked in 
a factory, forced to live on the premises in crowded, squalid 
conditions, had little time off, had their documents taken and were 
paid well below the minimum wage. Their movements were monitored, their 
e-mails and phone conversations read and listened to and they were 
constantly threatened with deportation, abuse by the local law 
enforcement and retaliation against their families. These intelligent, 
hard working individuals had been given no information about labor laws 
in this country, about their rights, about workers compensation 
programs, etc. It is my opinion that Section 202, Information for Work-
Based Non-Immigrants on Legal Rights and Resources, in the 
Reauthorization bill is a vastly needed prevention of the abuses that 
are often present in the current Guest Worker programs. During an 
interview just last week, a guest worker told me, ``It was more than 
fear, it was ignorance of the U.S., We didn't know how to make a phone 
call, didn't know anyone here, didn't know where to get help and we did 
not know the law. We didn't even know exactly where we were.''
    The development of a pamphlet that outlines workers rights, 
resources, laws and access to help is a major step in ensuring that the 
workers in this employment program will be protected, not exploited. 
(Sections 110, 202) If the welders in Oklahoma had been given this 
information, if the sheepherders out west had been provided with this 
help, employers would be held accountable, injuries and death might 
have been prevented, and workers would do the work they had been 
promised with the results they expected. Additionally, the sections of 
the reauthorization outlining requirements for foreign labor 
contractors are a positive and necessary step in this process of 
curtailing trafficking and slavery. In all cases of exploitation of 
workers here on work-based non immigrant visas with which I am 
familiar, the recruiters/contractors have not provided accurate 
information about the work conditions of the specific job awaiting 
these workers in the U.S. This reauthorization clearly spells out what 
information needs to be provided, as well as the certification of 
recruiters/contractors and the various enforcement processes for 
Department of Labor. The information to be conveyed consists of exactly 
what any individual in this country is entitled to by law when entering 
into an employment agreement.
    In summary, I support the William Wilberforce Reauthorization of 
2007 and urge this committee to carefully consider the TVPA of 2000 
that established a victim centered approach. In the words of the Office 
for Victims of Crime at Department of Justice, this should reflect 
every victim, every time. This law was created to assist both foreign 
born and U.S. citizens, men, women and children and the reauthorization 
2007 needs to reflect that.
    Thank you for your attention and the invitation to appear here 
today.

    Chairman Conyers. Thank you, Psychologist Florrie Burke.
    The Chair notices that there are two votes pending. We will 
try to take one more witness' testimony, that of Mr. Bradley 
Myles.
    The Chair notices the presence of Ms. Carolyn Maloney of 
New York, who is very interested in this subject matter. We 
welcome her to this hearing and include, without objection, her 
statement and a letter from the Coalition against Trafficking 
in Women.
    Thank you very much.
    [The prepared statement of Mrs. Maloney follows:]

        Prepared Statement of the Honorable Carolyn B. Maloney, 
        a Representative in Congress from the State of New York

    Chairman Conyers, Ranking Member Smith, members of the committee, I 
want to thank you for allowing me to submit a statement about the issue 
of human trafficking.
    Human trafficking is at least a $10 billion dollar worldwide 
industry and one of the largest organized crime rings in history. 
According to the State Department, approximately 800,000 people are 
trafficked across international borders for labor slavery and 
commercial sex purposes each year; the number is in the millions when 
trafficking within borders is counted. However, trafficking is not just 
a problem in other countries, it is happening in the United States in 
communities across the country. It represents what many have called the 
slavery issue of our time, and because girls and women are its 
overwhelming victims, it is one of the great women's issues of our 
time.
    The lives of trafficking victims are pure horror--many are tricked 
into the country, fooled into believing that they'll be doing 
legitimate jobs. They arrive, many with limited English skills, or are 
picked up as runaways at U.S. bus stations, and have everything taken 
from them--their documents are held by the trafficker, if they have 
any. They see very little of the money they earn. They are cut off from 
the outside world, have no freedom of movement and no friends or 
relatives to help them.
    I became involved in the fight to end human trafficking several 
years ago when I learned that a company, Big Apple Oriental Tours, was 
promoting sex tourism in my district in Queens. Since then, I have 
worked with my colleagues in Congress to pass several important pieces 
of legislation to fight this horrible problem. The 2005 Trafficking 
Victims Protection Reauthorization Act (TVPRA) included an important 
bill, the ``End Demand for Sex Trafficking Act,'' that I worked on with 
Representative Deborah Pryce (R-OH) to address the problems of domestic 
trafficking. I also have reintroduced legislation, H.R. 3424, that 
would combat human trafficking by using the tax code to put traffickers 
in prison.
    Last week, the House Foreign Affairs Committee voted out important 
legislation, H.R. 3887, the ``William Wilberforce Trafficking Victims 
Protection Reauthorization Act of 2007,'' which would help combat 
trafficking both domestically and internationally. I am a cosponsor of 
this legislation, and I believe that it is a good starting point. At 
the same time, I believe it critical that additional changes should be 
made to the legislation by this committee before it reaches the Floor 
for a vote by the whole House.
    First, I would urge a revision of the existing Mann Act statute by 
substituting ``in or affecting interstate commerce'' for the existing 
requirement that a trafficker must cause his victim to ``travel in 
interstate commerce.'' This change, along with moving the Mann Act into 
the Trafficking Victims Protection Act statute, would ensure that 
traffickers would be prosecuted for their heinous crimes, and would 
make it clear as we must, to ourselves and the world, that the act of 
trafficking--or the act of being a pimp--is a crime. Second, I believe 
that H.R. 3887 should call for the withdrawal of the current Department 
of Justice Model Law with one that would make proof of fraud, force, or 
coercion, or the minor status of trafficked persons, the basis of 
enhanced punishment of traffickers, rather than a required element of 
proof for the conviction of traffickers. Because states have been 
adopting the current DoJ Model Law, I share the concerns of the 
distinguished signers of the October 5, 2007, letter to Acting Attorney 
General Peter Keisler that fewer prosecutions of traffickers are 
occurring because of this proof requirement. I ask permission to enter 
this letter into the committee record, and I hope that the members of 
the committee will take the time to read the document signed by the 
leaders ranging from Gloria Steinem to Gary Bauer, from Walter Fauntroy 
to Beverly Lehay. Finally, I would urge the adoption of language in 
H.R. 3887 to make clear to DoJ that when Congress authorized a biennial 
survey in the 2005 TVPRA of the commercial sex industry in the United 
States, it expected this survey to be done. We must know the extent of 
this problem in the United States if we are going to target effectively 
our resources to combating it.
    I want to commend this committee for its work on behalf of the 
victims and survivors of human trafficking, and want in particular to 
commend the work of the chairman, and the chair of the Crime 
Subcommittee, our distinguished colleague Bobby Scott. I believe that 
through our collective efforts, we can make not only a difference, but 
history. The signers of the letter believe this can be so, and look to 
us to work together to protect the victims of the sex trade industry, 
and punish the predators who exploit them.
    Thank you.

    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Conyers. Mr. Bradley Myles, the next witness 
before our recess, is connected with the Polaris Project, a 
group in Washington that works with trafficking victims from 
the United States and abroad, and is engaged in intensive 
outreach with women in prostitution generally. Mr. Myles has 
played a key role in the development of State legislation and 
anti-trafficking task forces around the country.
    We welcome you to this hearing, sir.

   TESTIMONY OF BRADLEY W. MYLES, NATIONAL PROGRAM DIRECTOR, 
                        POLARIS PROJECT

    Mr. Myles. Thank you, Chairman Conyers, Ranking Member 
Smith, and Committee Members.
    My name is Bradley Myles, and I am the National Program 
Director of a nongovernmental organization based here in 
Washington, D.C., called the Polaris Project.
    Our organization is dedicated exclusively to fighting 
modern day slavery and human trafficking. With my brief 
comments today, I hope to provide some concrete examples of our 
direct experiences of working in the field in order to inform 
your sound policy decisions. The following are my 
recommendations which are supplemented and elaborated in my 
written testimony.
    First, our field must emphasize that human trafficking 
involves both the transnational trafficking of foreign 
nationals into our country as well as the internal trafficking 
of citizens within our country. In our field experience, we 
frequently encounter the common misconception that trafficking 
only involves foreign nationals who are brought across country 
borders. As the Federal law has been clear since the year 2000, 
the definition of ``human trafficking'' not only includes 
foreign nationals but also includes domestic or internal U.S. 
citizens. In the U.S., this means U.S. citizen victims of both 
sex trafficking and of forced labor.
    We need to use consistent and comprehensive definitions. We 
need to be inclusive of all types of victims, and we need to 
ensure that our structures, our systems, our policies, 
dialogues, and statistics consistently include both 
populations.
    Second, in the area of estimating the scope of trafficking, 
we are encountering skepticism in the field of the total number 
of victims in the U.S., and we need more research to help 
better and more accurate counting mechanisms for all victims in 
the U.S., including foreign nationals and U.S. citizens and 
victims of sex trafficking and forced labor. Currently, the 
majority of the victim counts out there, such as the Federal 
certification process, do not include U.S. citizen victims. The 
certification process and other counting mechanisms can be 
revisited toward these ends, and if we enable more sources 
beyond Federal law enforcement to initiate the certification 
process, I believe more victims can receive services and can be 
included in the count, reflecting our victim-centered values.
    Third, I encourage Congress to support the need for U.S. 
citizen victims of trafficking to receive funding for 
specialized services in addition to their foreign national 
counterparts, not in place of them. For the past 7 years, 
little to no Federal anti-trafficking funding to victims 
through the TVPA or its reauthorizations have been made 
available to provide case management services to victims who 
are U.S. citizens. The Polaris Project works with both U.S. 
citizens and foreign national victims, and we feel it is 
important for Federal anti-trafficking policies and funding 
streams to enable specialized providers in the field to work 
with both populations and to provide a sustainable continuum of 
care.
    Moreover, both foreign national and U.S. citizen victims 
need increased services, and the inclusion of VOCA funds in 
section 214(b) of this bill is a good step. However, I feel 
that additional legislative language is needed to address how 
these VOCA funds will reach victims at the State level.
    Fourth, it is critical to invest in the sustainability of 
the Federal human trafficking task forces and coalitions that 
have been built over the past 3 years. Since 2004, HHS and DOJ 
have been hard at work in creating long-term, sustainable 
infrastructure for the field. These structures have generated 
results, like in Washington, D.C., where our task force has 
prosecuted over 30 traffickers and has helped to provide 
services to over 70 victims. Yet, after watching our task force 
lose its funding about a month ago, we are now struggling to 
avoid losing the know-how, the capacity, the momentum, and the 
infrastructure that we have built over the past 3 years. Other 
cities are facing a similar struggle.
    Fifth, we must give prosecutors the strongest tools they 
need to effectively and efficiently prosecute traffickers. Our 
task force in Washington, D.C. has prosecuted around 30 sex 
traffickers, and while with only a small number of these 
prosecutions we actually went Federal with U.S. Code 1591, for 
a number of the prosecutions, we were able to use the local 
``pimping of a minor'' statute. I encourage the replication of 
these types of prosecution strategies and support their 
consideration in model statutes related to sex trafficking. 
Section 221's provision, addressing the knowledge of the age 
requirement for those who engage in the sex trafficking of 
minors, is a great tool that will advance the field.
    Other recommendations in my written testimony focus on the 
benefits of increased training, resources for task forces and 
coalitions, the need for increased research in the field to 
identify best practices and to share them, and the need for the 
increased coordination between DOJ's two types of anti-
trafficking task forces--the BJA-funded human trafficking task 
forces and also the Innocence Lost task forces that work with 
the sex trafficking of minors.
    The Polaris Project is honored to testify before you all 
today. As a member of the anti-trafficking field, as a voice 
for the victims we serve, as a leading member of the 
Washington, DC human trafficking task force, as HHS' national 
training and technical assistance grantee, as a member of 
numerous policy-related coalitions, including the action group 
to end human trafficking and modern day slavery, and in 
solidarity with survivors and with our partners in the field--
both the NGO and Federal partners--thank you for the 
opportunity to contribute to this hearing today.
    [The prepared statement of Mr. Myles follows:]

                 Prepared Statement of Bradley W. Myles

    Chairman Conyers, Ranking Member Smith, and Committee Members,
    Thank you for convening this hearing on the 2007 Reauthorization of 
Federal anti-trafficking legislation and for inviting representatives 
of our field to participate in this hearing and contribute to what I 
hope will be the passage of a historic anti-trafficking bill this year.
    My name is Bradley Myles, and I am the National Program Director of 
a non-governmental organization called Polaris Project headquartered 
here in Washington, DC. Our organization is dedicated exclusively to 
combating human trafficking and modern-day slavery, and my comments are 
based on our everyday experiences working on-the-ground identifying 
victims, operating hotlines, serving victims, participating on task 
forces with law enforcement, offering training and technical assistance 
on counter-trafficking strategies, fighting for stronger anti-
trafficking policies, and working in collaboration with Federal 
government agencies and our NGO partners in the field.
    In my testimony today, I will relay information about our direct 
experiences from the field in the hopes of providing this committee 
with concrete information from which to form important policy decisions 
that will make a difference in the lives of survivors of human 
trafficking. All of the information provided below is categorized by in 
the following areas:

        Human Trafficking Task Force Sustainability

        From Fall 2004 through the end of September 2007, the DC 
        metropolitan area benefited from one of the 42 Department of 
        Justice (DOJ) Human Trafficking Task Force grants. I played an 
        active leadership role in the task force and can testify to the 
        momentum and infrastructure that has been built to fight human 
        trafficking in the nation's Capitol over the past three years. 
        The task force grew to include participation from 20 government 
        agencies and over 35 NGOs, and our results included providing 
        services to over 70 victims and prosecuting approximately 30 
        traffickers thus far. Since the end of our grant on 9/30/07 and 
        without renewal funding, our task force is now focused on 
        struggling for sustainability in the face of competing 
        organizational priorities. I know of a number of other task 
        forces throughout the field that are experiencing similar 
        struggles. I strongly believe in the effectiveness of the task 
        force model in fighting trafficking, and I encourage continued 
        investment to ensure that the organizational knowledge, 
        infrastructure, and capacity that the field has built over 
        three years is maintained.

        Technical Assistance, Training, and Coordination Efforts for 
        the Task Forces

        After the launch of the 42 BJA-funded Human Trafficking Task 
        Forces, it became immediately evident that the task forces 
        demonstrated a desire for increased communication and peer-to-
        peer cross-learning between and among each other. Through my 
        role on the DC Task Force, I worked with others in the field to 
        reach out to all 42 task forces across the nation and invite 
        everyone's participation in an informal national listserv to 
        provide a vehicle for communication among the task force 
        leadership in each major city. In my opinion, the enthusiastic 
        participation that has occurred on the listserv is our clue 
        that the task forces can benefit greatly from strategic 
        interventions and increased support in the areas of training 
        and technical assistance. It has been uplifting to see linkages 
        being made and to see so many parts of the field all benefit 
        from the value of peer to peer learning. With increased 
        resources in these areas, we can raise the field to a whole new 
        level of maturity by exploring ideas such as regional multi-
        jurisdictional task forces, new prosecutorial strategies, an 
        array of topical roundtables addressing cutting edge 
        challenges, and field visits between task forces.

        Increased Coordination Between Inter-Related Types of DOJ-
        Initiated Task Forces

        Coming out of the Civil Rights Division of the DOJ, and in 
        close collaboration with the Human Trafficking Prosecution Unit 
        (HTPU), the Bureau of Justice Assistance (BJA), and the Office 
        for Victims of Crime (OVC), the field has benefited from the 
        launch of 42 Human Trafficking Task Forces, which I've just 
        described above. In addition, coming out of the Criminal 
        Division of the DOJ, and in close collaboration with the FBI 
        Crimes Against Children (CAC) squad, and the Child Exploitation 
        and Obscenity Section (CEOS), the Innocence Lost Task Force 
        Initiative has yielded important success in focusing on the sex 
        trafficking of minors. Both of these types of task forces are 
        working on different parts of the issue of human trafficking, 
        and DC has been a city where the BJA-funded Human Trafficking 
        Task Force has merged with the Innocence Lost task force to 
        function as a seamless whole. However, in my experience working 
        in other parts of the country, I've seen cities and States 
        where the two types of task forces are not in close 
        communication, are not coordinating efforts, and are not 
        connecting the dots to identify areas of overlap. Both types of 
        task forces have important strengths, and stronger centralized 
        coordination of all anti-trafficking efforts within DOJ should 
        help to increase collaboration levels.

        Prosecution Strategies Related to Sex Trafficking

        In the Washington, DC area, the DC Human Trafficking Task 
        Force/FBI Innocence Lost Task Force has placed a particular 
        emphasis on the sex trafficking of U.S. citizens. In our 
        efforts, we have encountered significant numbers of sex 
        traffickers who are inducing minors into commercial sex acts 
        and inducing women ages 18 or over into commercial sex acts 
        using violence, deception, lies, and threats. Based on the 
        Federal definition outlined in the TVPA of 2000, all of these 
        U.S. citizen sex traffickers have committed acts that meet the 
        definition of severe forms of trafficking in persons. However, 
        of the more than 30 sex traffickers that our Task Force has 
        prosecuted, only a small minority of them have involved Federal 
        cases using U.S.C 1591, the Federal severe forms of sex 
        trafficking statute created in the TVPA of 2000. Instead, the 
        majority of the cases have involved the use of local DC 
        statutes related to pandering and pimping a minor. These cases 
        have involved less Federal resources, have tended to occur 
        quickly, and have generally been less taxing on the limited 
        resources of the task force. Our task force is currently 
        exploring other ways to use similar local statutes to give 
        prosecutors more tools to crack down on sex traffickers while 
        still avoiding resource intensive Federal cases that often 
        require victims to take the stand to prove that elements of 
        force, fraud, or coercion were present. The overall goal is to 
        foster increased numbers of prosecutions of sex traffickers in 
        the most efficient and least resource-intensive ways that place 
        minimal risks of retraumatization on the victims. Based on the 
        experience of our task force, we encourage the exploration and 
        replication of these strategies for use in other cities and for 
        consideration in model statutes related to prosecution of sex 
        trafficking.

        Persistent Myths and Misconceptions about Definitions of Human 
        Trafficking

        In my experience discussing the issue of human trafficking with 
        a wide variety of audiences over the past five years, it is 
        quite apparent that the prevailing image of human trafficking 
        in most people's minds involves border crossing and the 
        movement of people into a country. Trafficking victims are 
        conceptualized as a group very similar to refugees, and the 
        structures, systems, statistics, counting mechanisms, and 
        dialogue about victims tends to mirror discussions about 
        refugees. In actuality, based on the Federal definition 
        outlined in the Trafficking Victims Protection Act (TVPA) of 
        2000, victims of human trafficking do not have to be from other 
        countries and do not have to cross national borders. 
        ``Domestic'' or ``internal'' trafficking that happens to 
        citizens of a country, within their own country, warrants 
        increased attention, research, and understanding. Moreover, our 
        national response to the issue of human trafficking must take 
        domestic or internal trafficking into account at all levels. 
        What are the estimates of total numbers of U.S. citizen victims 
        of trafficking? How are U.S. citizen victims targeted by 
        traffickers, and what types of exploitation do they experience? 
        Do training and awareness materials about human trafficking 
        adequately address U.S. citizen victims? What government 
        systems and services are U.S. citizen trafficking victims 
        encountering, and how are those systems meeting their unique 
        needs? It is these types of questions that I encourage the 
        field to ask and answer to more adequately understand the full 
        spectrum of ways that the issue of human trafficking affects 
        our country. We need to engage in dialogues that are inclusive 
        of all victims, that do not pit types of victims against each 
        other, and that do not divide the field based on the 
        nationality of victims.

        Estimating the Full Scope and Prevalence of Human Trafficking 
        in the U.S.

        As an NGO working on the ground on this issue, I can testify to 
        our recent experience of having the scope and prevalence of 
        this issue being increasingly questioned by skeptics who draw 
        their conclusions about low victim numbers based largely on the 
        number of ``certified'' victims. As reflected in the Attorney 
        General's Annual Report to Congress on US Government Activities 
        to Combat Trafficking in Persons Fiscal Year 2006, 1076 total 
        certification letters have been issued to victims of 
        trafficking in the first six fiscal years in which the 
        certification program has operated. Whether or not it was 
        originally intended to be viewed as such, it seems the 
        ``certification'' process is now being used by various sources 
        as an indication of an ``official count'' of trafficking 
        victims in the U.S. Those of us in the field who have a more 
        detailed understanding of the certification process know that 
        it does not include victims who are unwilling to be known to or 
        cooperate with law enforcement, it does not include victims for 
        whom Federal law enforcement agents were not willing to sign a 
        Law Enforcement Authorization (LEA) form, it does not include 
        pools of victims who are seeking other immigration remedies 
        outside of the T-visa, and it does not include any U.S. citizen 
        victims because as currently designed, certification is a 
        process reserved only for foreign national victims. Therefore, 
        judging the prevalence of the issue of human trafficking based 
        on the certification process is clearly not the most inclusive 
        indicator of the total numbers of individuals experiencing the 
        crime of human trafficking in the U.S. each year. We need 
        better, more accurate, and more exhaustive counting mechanisms 
        for all victims to help provide a more true picture of the full 
        scope of human trafficking occurring within the United States 
        that includes transnational trafficking of foreign nationals 
        into the U.S., as well as the internal trafficking of U.S. 
        citizens within the U.S. If the certification process will 
        continue to be viewed as the national official ``count'' of 
        victims, revisions to the process should be considered such as 
        including US citizen victims, and enabling more sources beyond 
        Federal law enforcement to initiate the certification process 
        so that a victim's cooperation with Federal law enforcement is 
        not so strongly linked to the victim's ability to be counted 
        and provided with services.

        The Need for Specialized Services for U.S. Citizen Victims of 
        Human Trafficking

        As stated in the aforementioned May 2007 Attorney General's 
        Annual Report to Congress, the section on benefits and services 
        for victims clearly states that ``the funds provided under the 
        TVPA by the federal government for direct services to victims 
        are dedicated to assist non-U.S. citizen victims and may not 
        currently be used to assist U.S. citizen victims;''. Because 
        Polaris Project is a service provider for victims of 
        trafficking working with both populations of U.S. citizen 
        victims and foreign national victims, we are very well aware of 
        the service landscape for both types of victims, not only in 
        Washington, DC, but also on a national scale. OVC grants to 
        NGOs for case management services to victims of trafficking 
        have been restricted exclusively to foreign national victims, 
        and HHS anti-trafficking services and benefits have also been 
        restricted to non-citizen victims because of HHS' statutory 
        authority that is linked to certification, which again is a 
        process reserved only for foreign national victims. The result 
        of these two Federal funding streams is that while all 
        trafficking victims need specialized case management services, 
        U.S. citizen trafficking victims have been particularly 
        underserved with Federal anti-trafficking dollars over the past 
        seven years. To date, little to no Federal anti-trafficking 
        funds for specialized services to victims through the TVPA or 
        its reauthorizations have been made available to work with 
        victims who are U.S. citizens, thereby making nationality, not 
        the nature of victimization, the determining variable of 
        whether a trafficking victims receives specialized case 
        management services or not. Moreover, although both foreign 
        national and U.S. citizen trafficking victims are encountering 
        other government service systems and government-funded programs 
        in various ways, both populations demonstrate an array of 
        comprehensive and specialized service needs that are best met 
        by comprehensive and specialized anti-trafficking service 
        providers. In my opinion, it is important for Federal anti-
        trafficking policies and funding streams to enable specialized 
        providers in the field to work with all types of trafficking 
        victims, not to restrict them to one population or another, and 
        to provide a sustainable continuum of care that will benefit 
        all victims, regardless of nationality.

        The Role of Demand Reduction in Fighting Sex Trafficking

        With specific regard to sex trafficking, through our local 
        knowledge of trafficking networks and trends, we're seeing sex 
        traffickers responding directly to spikes and dips in demand 
        for commercial sex. As a market-based issue that operates on 
        principles of supply and demand, this direct correlation is a 
        natural and predictable phenomenon. As an example, we're seeing 
        domestic sex traffickers raising nightly quotas on the women 
        under their control when they know demand for commercial sex is 
        high and more money can be made. These clear linkages help us 
        to realize the importance of associating demand for commercial 
        sex with the growth and proliferation of sex trafficking. Sex 
        traffickers are in the business of making profits, and the 
        demand-based presence of cash flows provides the incentive to 
        operate. Moreover, because of the direct correlation, we know 
        that demand reduction strategies are an in important part of 
        the fight against sex trafficking. These may include both law 
        enforcement strategies, as well as community-based, faith-
        based, and other social strategies. Based on our experiences in 
        the communities where we work, we can testify to the importance 
        of many of the provisions in Title II of the Trafficking 
        Victims Protection Reauthorization Act of 2005 that relate to 
        demand reduction.

        The Need for Increased Coordination of Federal Training 
        Initiatives on Trafficking

        Through a FY07 contract and a recently awarded additional 
        grant, Polaris Project has functioned as a specialized training 
        and technical assistance (T&TA) provider for the field, funded 
        by the U.S. Department of Health and Human Services (HHS) Anti-
        Trafficking in Persons (ATIP) program. Moreover, being in the 
        space of providing training and technical assistance to others 
        has helped us to more fully understand and experience the 
        proliferation of disparate and uncoordinated T&TA efforts 
        occurring in the anti-trafficking field that is reflective of 
        the silos and stove-pipes that sometimes occur within and 
        between government departments. While all of these initiatives 
        are important for advancing the field, a lack of coordination 
        among providers hinders the overall effectiveness and 
        continuity of these multi-pronged efforts. Proactive steps and 
        concrete venues to bring these providers together will, in my 
        opinion, help to bring the anti-trafficking field to a new 
        level of capacity-building, coordination, and sophistication.

        The Critical Role of Increased Research

        Being on the ground and learning how to make the most of scarce 
        resources, NGOs in the field are constantly vigilant of the 
        tools we have and the tools we wish for that could help make 
        our jobs more effective. I've experienced countless examples of 
        meetings, presentations, and trainings where audience members 
        asked important questions that I simply didn't have the tools 
        to fully answer. Continually refined estimates of the total 
        numbers of victims nationwide, the size of certain economies, 
        the estimated profits of certain trafficking networks, or the 
        total revenue of the unlawful commercial sex trade in the U.S. 
        could all be useful tools that would boost the effectiveness of 
        practitioners in the field. In addition, descriptions of known 
        slave-made goods, new trends in the behavior of traffickers, or 
        largely unknown niches of victims, such as the scope of US 
        citizen victims of labor trafficking, could also be incredibly 
        useful for on the ground advocacy. Combined with the ever-
        present need to identify and share best and promising practices 
        for law enforcement, victim care, and victim identification, 
        research clearly plays an important role in helping to 
        validate, explore, highlight, and describe different parts of 
        the anti-trafficking field.

        Understanding How Trafficking Victims Encounter Other 
        Government Programs

        Beyond various anecdotal accounts and informal research 
        efforts, very little is currently known on a formal basis about 
        how victims of human trafficking encounter other government 
        programs such as welfare offices, the child welfare system, 
        victim compensation funds, or government-run shelters. 
        Moreover, our field also does not have a complete 
        understanding, based on formal research, of how many 
        trafficking victims are being served by other types of service 
        programs such as domestic violence shelters, rape crisis 
        centers, and runaway and homeless youth shelters, and what 
        types of positive and negative experiences they are having 
        within these other systems. The commencement of a study to 
        determine the extent to which victims of trafficking are being 
        served by other systems and programs on both a local and 
        national scale could be quite useful for the field to more 
        fully understand the experiences of victims as they access 
        services from different agencies.

        The Benefits of Inter-Disciplinary Dialogue with Other Fields 
        and Sectors

        On the ground service organizations for victims of trafficking 
        frequently operate in a local environment where they 
        collaborate and form linkages with a vast array of other types 
        of service providers, such as domestic violence shelters, legal 
        services organizations, rape crisis centers, runaway and 
        homeless youth programs, and health clinics. Throughout the 
        process of collaboration, it is likely that linkages, 
        commonalities, and points of overlap will be identified and 
        explored. Given these inter-disciplinary linkages between 
        fields, we feel that there is great room for rich dialogue and 
        cross-learning to occur that will increase the cohesion of the 
        systems of care that work with victims of crime. The creation 
        of more formal mechanisms, vehicles, and venues for these types 
        of inter-disciplinary dialogues to occur will, in my opinion, 
        enhance the efforts of the anti-trafficking field as a whole.

    Polaris Project implements its programs and strategies using a 
comprehensive approach that matches top-down system-based change and 
institutionalization with bottom-up community-based implementation and 
grassroots advocacy. We strongly believe in the importance of policy 
advocacy, at the Federal, State, and local levels, as an essential 
component of a comprehensive counter-trafficking response. As a result, 
we are members of numerous coalitions that participate in policy 
advocacy, including the Action Group to End Human Trafficking and 
Modern-day Slavery.
    The movement to end human trafficking and modern-day slavery in the 
United States and around the world gains momentum and sophistication 
each year, and I am continually hopeful to see our field grow and 
improve. I am confident that the Trafficking Victims Protection 
Reauthorization Act of 2007 will represent a bold and historic step 
towards these aims, and I hope the recommendations provided in this 
testimony have offered policy-makers concrete tools for improving the 
field and services to victims.
    Thank you again for this opportunity to speak before you all today.

    Chairman Conyers. Thank you very much, Mr. Myles.
    The Committee will stand in recess. There are two votes of 
15 minutes each, so you can gauge your time accordingly, and we 
will resume immediately after the conclusion of those votes.
    Thank you very much.
    [Recess.]
    Chairman Conyers. The Committee will come to order.
    We are now pleased to recognize Dr. Amy Farrell of the 
Institute on Race and Justice of Northeastern University's 
College of Criminal Justice. Building from their groundbreaking 
work on hate crimes in the 1990's, Dr. Farrell and her team 
have recently completed the first large-scale, peer-reviewed 
study of anti-trafficking task forces nationwide.
    We welcome you to the Committee and look forward to your 
comments.

TESTIMONY OF AMY FARRELL, Ph.D., ASSOCIATE DIRECTOR, INSTITUTE 
ON RACE AND JUSTICE, PRINCIPAL RESEARCH SCIENTIST, NORTHEASTERN 
                           UNIVERSITY

    Ms. Farrell. I would like to thank the Chairman and the 
leadership of the House Judiciary Committee for convening this 
important hearing.
    I am very proud to appear today in support of the William 
Wilberforce Trafficking Victim s Protection Reauthorization Act 
of 2007.
    I am joined at this hearing by my colleague and research 
partner, Jack McDevitt, the director of the Institute on Race 
and Justice and the Associate Dean in the College of Criminal 
Justice at Northeastern University.
    Over the past 4 years, we have conducted extensive research 
on local law enforcement's ability to identify, investigate and 
respond to human trafficking in communities throughout the 
United States. I will use my time today to discuss the role of 
local law enforcement in fighting human trafficking and 
highlight some of the important ways that this legislation can 
improve law enforcement responses to the problem.
    It is from my background as a police researcher that I 
approach questions about human trafficking. During my career, I 
conducted extensive research in the field of policing, with a 
focus on understanding how police respond to new or newly 
recognized crimes. My research with Jack McDevitt on hate crime 
identification, for example, has added significantly to our 
understanding of the challenges police face in identifying, 
investigating and reporting information about newly defined 
crime.
    We recently completed a study for the National Institute of 
Justice examining the experiences of thousands of county, State 
and local law enforcement agencies in identifying and 
responding to human trafficking. And I am currently leading a 
project for the Bureau of Justice Statistics to develop the 
first national standardized data collection procedure for 
human-trafficking investigations that originate from local law 
enforcement agencies. I will discuss some preliminary findings 
from these studies which are pertinent to today's hearing.
    Local law enforcement agencies can often be in the best 
position to identify human-trafficking victims or perpetrators 
who may be hidden in the communities they serve. These agencies 
are involved in routine activities that bring them into contact 
with the criminal elements where trafficking may be occurring.
    While some have criticized the present response by local 
law enforcement to human-trafficking crime, I believe law 
enforcement must play a central role in the eradication of 
human trafficking. Local law enforcement has, in the past, 
demonstrated the capacity and willingness to understand and 
respond to complex and challenging newly recognized crimes 
similar to those we are discussing here.
    As an illustration, in 1990, no more than a handful of hate 
crimes were investigated by local law enforcement. In fact, few 
officers even recognized the term ``hate crime.'' Today, we 
have over 7,000 hate crimes that are investigated annually by 
local law enforcement across the country.
    This kind of success is possible for human-trafficking 
victims, but there are a number of challenges that we must 
overcome. As a starting point, law enforcement must have a 
shared definition of ``human trafficking.'' And an essential 
part of this definition is developing an understanding of how 
to operationalize the elements of force, fraud and coercion in 
their own communities.
    Once law enforcement understands what human trafficking is, 
they will be more likely to recognize all forms of trafficking 
that exist in their community, including both labor and sex 
trafficking. The results of our national study indicate that 
when local law enforcement agencies understand what human 
trafficking is and perceive it as a problem in their community, 
they are more likely to prepare their officers to respond to 
these cases, and subsequently they identify victims.
    Despite these efforts, victims of human trafficking remain 
difficult to identify and serve, for a number of reasons. They 
are often hidden from the public with little or no ability to 
contact the police. And even when they have the ability to seek 
help, they are often afraid of the police. Perpetrators of 
human trafficking depend on victim fear of law enforcement as a 
means of coercion.
    These characteristics are endemic to human trafficking. And 
as a result, it is now imperative for us to develop innovative 
strategies to identify and prosecute offenders, even with 
limited victim cooperation.
    Investigation of human trafficking often involves a number 
of Federal, State and local law enforcement agencies. These 
groups have different mandates and conflicting goals. Sometimes 
they impede the efforts to support victims and arrest 
perpetrators. Despite these challenges, our study shows that 
agencies working in federally funded task forces have a better 
understanding of human trafficking, identify more cases of 
human trafficking, and are much more likely to bring the cases 
that they identify to prosecution.
    So, improved coordination, training and technical 
assistance across all levels of law enforcement are essential 
to the fight against human trafficking. The TVPA and this 
reauthorization provide a powerful framework through which this 
goal can be accomplished.
    Modern slavery, which is what human trafficking is, is an 
affront to American values. Every day, men, women and children 
are forced to engage in labor and sex against their will across 
this country. It is a crime that cannot be tolerated in this 
great Nation. Through strong Federal leadership and 
legislation, such as the William Wilberforce Trafficking 
Victims Protection Reauthorization Act, local communities can 
enhance their efforts to identify and assist victims of this 
horrendous crime and bring its perpetrators to justice.
    [The prepared statement of Ms. Farrell follows:]

                   Prepared Statement of Amy Farrell

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Conyers. Thank you so much.
    The Director of Refugee Programs of the United States 
Conference of Catholic Bishops is Anastasia Brown, who 
supervises services to refugees, victims of trafficking and 
unaccompanied alien minors resettled through the Catholic 
network in the United States.
    We welcome you to this hearing.

 TESTIMONY OF ANASTASIA K. BROWN, DIRECTOR, REFUGEE PROGRAMS, 
   MIGRATION AND REFUGEE SERVICES, U.S. CONFERENCE OF BISHOPS

    Ms. Brown. I am Anastasia Brown, Director of Refugee 
Programs for the U.S. Conference of Catholic Bishops. I would 
like to thank you, Mr. Chairman and Ranking Member 
Representative Smith, for holding this important hearing and 
inviting USCCB to testify.
    I will have my testimony today in support of H.R. 3887, the 
William Wilberforce Trafficking Victims Protection 
Reauthorization Act of 2007.
    Mr. Chairman, my written remarks more completely address 
our concerns for victims of trafficking. I will focus the oral 
testimony today on how the U.S. Government responds to the 
plight of children who are subject to the horrific crime of 
human trafficking.
    Children are perhaps the most vulnerable group of victims 
of trafficking. While efforts to find and assist victims have 
been pursued with commendable commitment over the last several 
years, I fear that children, as a group, have fallen through 
the cracks of these enforcement efforts. Of the close to 17,500 
persons trafficked into the United States each year, an 
estimated one-third are children. But unfortunately, there have 
been few referrals of children for services since 2000. Special 
attention needs to be given to identifying child victims.
    Immediate safety and long-term stability are the 
overwhelming need of child victims, regardless of age, 
background, type of enslavement or any other characteristic. 
For some of the children to date, the referral and service 
system has worked well. However, a continuum of care in which 
the child experiences the most stability should become the norm 
for all child victims.
    The care of children, particularly extremely vulnerable 
children, should be governed by a set of principles to ensure 
positive outcomes. These principles include the use of best 
interest of the child's standards in all cases; the provision 
of immediate safe haven with a systematic plan for assessing a 
child's needs; the exploration of family reunification as a 
priority; the placement of children in the least restrictive 
stetting; the provision of legal assistance to children; and 
the development of a long-term plan for self-sufficiency of 
children.
    Unfortunately, these principles have not always governed 
how the United States has treated vulnerable children. I would 
like to point to several provisions in H.R. 3887 and explain 
how they would improve the protection regime for child 
trafficking victims and other vulnerable children who come into 
the Government's care.
    Mr. Chairman, we strongly support provisions in Section 
213, which provide interim emergency assistance for potential 
trafficking victims prior to their final determination as 
victims. This is a critical need, as often children can 
languish in detention or without any appropriate care, often 
relying on good Samaritans, while their eligibility or legal 
custody is determined.
    We also support the sense-of-Congress language which urges 
ORR to determine eligibility for services without approval of 
another agency. We urge you to add provisions which would give 
the Secretary of HHS discretion to continue care for children 
beyond the standard for adult victims. We consider 
unaccompanied refugee minor programs to be the most appropriate 
placement for child victims of trafficking with no family.
    Mr. Chairman, we have also found that child trafficking 
victims are often not immediately identified as such. Federal 
authorities, including the Border Patrol agents as well as 
State and local authorities, are not always well-trained in 
identifying trafficking victims and often are unaware of the 
care available to these victims. We support in Section 213 the 
requirement that law enforcement notify HHS of possible child 
victims of trafficking.
    We ask you to encourage or to accept referrals for services 
from other entities, including faith groups and nonprofit 
organizations trained in identifying trafficking victims. This 
is particularly of concern for children.
    Mr. Chairman, USCCB strongly supports Section 236, which 
ensures the safe and protective placement of vulnerable 
children who may be subject to human traffickers. These 
provisions are needed to ensure that vulnerable children are 
protected.
    Specifically, we support language that directs the 
Secretary of HHS to place vulnerable children in the least 
restrictive setting possible, determined by the best interest 
of the child. Foster care and family reunification placements 
provide the most protective setting for children. We agree that 
home studies should be conducted before the placement of a 
child with a sponsor, and this should be required in all 
potentially at-risk situations.
    We are generally supportive of the concept of providing 
guardian ad litem for each child in order to protect the child, 
but that guardian must have a voice in the court rendering a 
decision on the child. And we believe that such a guardian must 
be a child-welfare expert who understands the emotional and 
physical needs of the child.
    Mr. Chairman, H.R. 3887 makes strides in strengthening the 
protection regime for vulnerable children, especially child 
trafficking victims. We strongly support its enactment.
    Thank you for your consideration.
    [The prepared statement of Ms. Brown follows:]

                Prepared Statement of Anatasia K. Brown

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Conyers. Thank you, Ms. Brown.
    Lamar Smith has gone to the White House for a bill signing. 
He has been replaced by Steve King of Iowa as the Ranking 
Member for the Committee.
    And in Iowa, the Northern District, the U.S. Attorney's 
Office has established for the first time a task force on human 
trafficking and modern slavery. And I wanted to commend that 
activity that is now going on in your State.
    The director of the Sanctuary for Families' Center for 
Battered Women's Legal Services is Ms. Dorchen Leidholt. And 
she is a founding member of the Coalition Against Trafficking 
in Women. Ms. Leidholt has worked on the problem of sex 
trafficking for nearly 2 decades and is an internationally 
recognized expert in this field.
    We welcome you to the hearing.

  TESTIMONY OF DORCHEN A. LEIDHOLDT, DIRECTOR, SANCTUARY FOR 
FAMILIES' CENTER FOR BATTERED WOMEN'S LEGAL SERVICES, FOUNDING 
      BOARD MEMBER, COALITION AGAINST TRAFFICKING IN WOMEN

    Ms. Leidholt. Thank you very much. Chairman Conyers, 
Members of the House Judiciary Committee, Ranking Member King, 
fellow anti-trafficking advocates, I am grateful for this 
opportunity to address the subject of how the TVPA can become a 
more effective vehicle to prosecute traffickers engaging in the 
sexual slavery of women and girls.
    Both Sanctuary for Families and the Coalition Against 
Trafficking in Women understands sex trafficking to be an acute 
form of violence against women that often overlaps with and 
sometimes is coextensive with other practices of gender-based 
violence, in particular, domestic violence and sexual assault.
    We have seen that sex traffickers and their agents lure 
vulnerable women and girls into situations of sex slavery by 
establishing relationships with them, holding themselves out as 
boyfriends and protectors. The modus operandi of domestic sex 
traffickers, popularly known as pimps, is to enslave vulnerable 
girls and women through tactics that combine seduction with 
brainwashing and terrorism.
    Rarely are these victims recognized for what they are: 
severely battered women. Almost all sex trafficking victims are 
victims of serial sexual assault. They typically suffer from 
rape trauma, post-traumatic stress disorder, severe depression, 
acute feelings of worthlessness and shame, memory loss, and 
sometimes even suicidal ideations and acts. In short, victims 
of sex trafficking experience all of the trauma battered women 
and rape victims sustain, often at significantly higher levels.
    These realities, Mr. Chairman, have profound implications 
not only for how we can best assist sex-trafficking victims but 
also for how we can most effectively prosecute their 
exploiters.
    The TVPA defines ``sex trafficking'' as the recruitment, 
harboring, transportation, provision or obtaining of a person 
for a commercial sex act. To prosecute a sex trafficker under 
the TVPA, however, the Government must prove not only that sex 
trafficking took place, but also that the trafficking was 
carried out through force, fraud or coercion. Too often, Mr. 
Chairman, these proof requirements create insurmountable 
obstacles to the successful and effective prosecution of sex 
traffickers.
    Mr. Chairman, Sanctuary represents two Korean immigrant 
sex-trafficking victims whose traffickers are currently on 
trial in Federal court in the Southern District of New York. 
These traffickers preyed on their victims' poverty and 
undocumented status, made them endure 14- to 16-hour days of 
sexual servitude, deprived them of sleep and food, and demanded 
that they endure sexual intercourse with as many as 10 
customers a shift. The tactics these traffickers used precisely 
fit Amnesty International's definition of torture.
    Although both victims are physically and psychologically 
devastated by their brutal exploitation, these traffickers are 
not being prosecuted under the TVPA. Why not? Because the U.S. 
attorneys prosecuting the case, hard-working and resourceful 
though they are, are unable to make out the TVPA's proof 
requirements of force, fraud or coercion.
    In other cases, traffickers use force, fraud or coercion, 
but their victims are too terrified to testify about it, often 
because the traffickers threaten to harm family members abroad.
    The need to prove force, fraud or coercion makes it all but 
impossible for any sex-trafficking prosecution to go forward 
without a victim willing and able to take the stand to testify 
at length about her abuse and sexual exploitation and undergo 
brutal and humiliating cross-examination. When victims facing 
such an ordeal refuse to testify, as they often do, 
prosecutorial strategies to force them to testify often only 
serve to deepen their trauma and may even result in testimony 
that is beneficial to traffickers.
    Requiring prosecutors to prove force, fraud or coercion 
places victims and their families abroad in greater danger. The 
smartest and most ruthless traffickers realize that using 
violence and threats of violence brutal enough to terrorize 
their victims into silence is a good business practice. As long 
as force, fraud and coercion are elements of the offense, the 
worse traffickers are, the more unreachable they remain.
    The TVPA's unnecessarily onerous proof requirements have 
not only hobbled trafficking prosecutions in the United States. 
Other countries, most recently Mexico, have adopted Federal 
anti-trafficking laws modeled after ours that require proof of 
force, fraud or coercion in sex-trafficking cases. With some of 
the most ruthless and brutal trafficking rings in the world--
and, correspondingly, some of the most terrified victims--
Mexico needs a law that takes the onus off of victims, not one 
that puts them squarely in the traffickers' cross-hairs.
    So what is the solution? The force, fraud or coercion 
requirement of the TVPA is not present in other Federal laws 
that have been used successfully to prosecute sex traffickers, 
most notably the Mann Act. Unfortunately, the TVPA has all but 
effectively supplanted these older laws.
    While Federal prosecutors should be encouraged to begin to 
use older laws to prosecute sex traffickers, this country's 
most recent and best-recognized anti-trafficking initiative, 
the law that has become the model for anti-trafficking 
legislation domestically and internationally, must be a more 
effective deterrent to sex traffickers.
    As Congresswoman Maloney recommends in her statement, the 
TVPA must be amended to eliminate its unnecessary and onerous 
proof requirements for Federal sex-trafficking prosecutions 
which only serve to intensify the danger and humiliation of 
cooperation for victims. This can be done by revising the Mann 
Act, as Congresswoman Maloney suggests, and moving it into the 
TVPA.
    Mr. Chairman, an important postscript: The force, fraud or 
coercion requirements that have stymied sex-trafficking 
prosecutions at the Federal level have also sabotaged State 
anti-trafficking efforts. How did this happen? A few years 
after the passage of the TVPA, the Department of Justice 
unveiled a, quote, ``model anti-trafficking law'' for States. 
That law made proof of force, fraud or coercion a requirement 
for prosecuting sex traffickers. Well over half of the States 
then passed State anti-trafficking laws, most borrowing heavily 
from the Justice Department's, quote/unquote, ``model law.'' 
Just as the TVPA came to supplant the Mann Act, new State anti-
trafficking laws with this burdensome proof requirement began 
to supplant existing laws against pimping.
    Again, as Congresswoman Maloney urges, the Department of 
Justice must withdraw this model statute and replace it with 
one that makes force, fraud or coercion not an element of the 
crime of sex trafficking, undermining successful prosecutions 
and placing victims in needless danger, but must use force, 
fraud or coercion as the basis of enhanced penalties.
    Thank you very much, Mr. Chairman, for permitting this 
contribution.
    [The prepared statement of Ms. Leidholdt follows:]

               Prepared Statement of Dorchen A. Leidholdt

    Chairman Conyers, Members of the House Judiciary Committee, fellow 
anti-trafficking advocates: I am grateful for this opportunity to 
address the subject of how the Trafficking Victims Protection Act can 
become a more effective vehicle to prosecute traffickers engaging in 
the sexual slavery of women and girls. I speak as the Director of 
Sanctuary for Families' Center for Battered Women's Legal Services. 
Founded in 1988, the Center is the largest legal services program for 
domestic violence victims in the United States and, and since the mid 
1990's, has been providing legal services to a growing number of 
victims of sex trafficking. Since 2005, Sanctuary for Families has been 
one of the lead organizations of the New York State Anti-Trafficking 
Coalition, which successfully fought for the passage of a strong and 
comprehensive anti-trafficking law in New York State. That law goes 
into effect today.
    I am also speaking as the Founding Board Member of the Coalition 
Against Trafficking in Women, a non-governmental organization working 
since 1988 to end all forms of trafficking in women and girls into 
prostitution and related forms of commercial sexual exploitation. The 
Coalition is made up of networks in Asia, Latin America, Africa, 
Europe, North America, and Australia that work to prevent the sex 
industry's exploitation and abuse of women and girls, to protect its 
victims, and to prosecute and punish all those involved in this brutal 
trade.
    The Coalition has conducted pioneering research into the 
trafficking of women, including the first comprehensive study of sex 
trafficking into the United States, funded by the National Institute of 
Justice. The Coalition has funded and assisted trafficking prevention 
programs in Venezuela, the Philippines, Mexico, the Republic of Georgia 
and supported services for Nigerian and Albanian sex trafficking 
victims in Italy. The Coalition took a leadership role in drafting the 
Trafficking Protocol to the United Nations Convention Against 
Transnational Organized Crime. More recently, the Coalition, together 
with the European Women's Lobby has spearheaded a project to address 
gender inequality, the demand for trafficking, and the link between 
trafficking and prostitution in twelve Central and Eastern European 
countries contending with escalating rates of sex trafficking.
    Both Sanctuary and the Coalition understand sex trafficking to be 
an acute form of violence against women that often overlaps with and 
sometimes is coextensive with other practices of gender-based violence, 
in particular domestic violence and sexual assault. In the cases we 
have handled, we have seen that sex traffickers and their agents often 
lure vulnerable women and girls into situations of sex slavery by 
establishing relationships with them, holding themselves out as 
boyfriends and protectors. Sometimes, as in U.S. v. Caretto, the 
successful prosecution of a family of sex traffickers from Mexico, 
traffickers even marry their victims. The modus operandi of domestic 
sex traffickers, popularly known as pimps, is to enslave vulnerable 
girls and women through tactics that combine seduction with 
brainwashing and terrorism. Rarely are these victims recognized for 
what they are: severely battered women.
    Almost all sex trafficking victims are victims of serial sexual 
assault. For many, sexual assault precedes their entry into sex 
trafficking; the trauma they have sustained renders them vulnerable to 
their traffickers, facilitates their traffickers' control, and is 
exacerbated by the trafficking. For all sex trafficking victims, the 
sexual exploitation they are subjected to an integral part of the 
trafficking leaves profound psychic injuries. Sex trafficking victims 
typically suffer from rape trauma, post traumatic stress disorder, 
severe depression, acute feelings of worthlessness and shame, memory 
loss, and/or suicidal ideations and acts. Victims of sex trafficking 
experience all of the trauma battered women and rape victims sustain, 
often at significantly higher levels.
    These realities have profound implications not only for how we can 
best assist sex trafficking victims but also for how can we most 
effectively prosecute their exploiters. The TVPA defines sex 
trafficking as ``the recruitment, harboring, transportation, provision, 
or obtaining of a person for a commercial sex act.'' To prosecute a sex 
trafficker using the TVPA's criminal penalties, however, the government 
must prove not only that sex trafficking took place but also that the 
trafficking was carried out through ``force, fraud, or coercion.'' Too 
often these proof requirements create insurmountable obstacles to the 
successful prosecution of sex traffickers. In some cases, brutal and 
exploitive sex traffickers need not resort to force, fraud, or coercion 
because their victims are so vulnerable, terrified, or traumatized that 
such conduct isn't necessary to obtain their victims' submission.
    Sanctuary represents two Korean immigrant sex trafficking victims 
whose traffickers are currently on trial in federal court in the 
Southern District of New York. These traffickers preyed on their 
victims' poverty and undocumented status, made them endure 14 to 16 
hour days of sexual servitude, deprived them of sleep and food, and 
demanded that they endure sexual intercourse with as many as ten 
customers a shift. The tactics these traffickers used precisely fit 
Amnesty International's definition of psychological torture. Although 
both victims are physically and psychologically devastated by their 
brutal exploitation, their traffickers are not being prosecuted under 
the TVPA. Why not? Because the U.S. attorneys prosecuting the case, 
hardworking and resourceful though they are, are unable to make out the 
TVPA's proof requirements of force, fraud, or coercion. As a result the 
traffickers are only facing charges of conspiring to violate the Mann 
Act and a sentence of a mere three-to-five years in prison.
    In another case, Sanctuary represents a sex trafficking victim from 
Russia. Her trafficking scenario was classic: she answered an ad in a 
Moscow paper for a babysitting job in New York City, was greeted at JFK 
airport by traffickers who confiscated her passport and put her into 
debt bondage, and was then forced into prostitution, where she was 
passed from trafficker to trafficker. Katerina was so psychologically 
broken by her abuse at the hands of the first group of traffickers that 
its successors didn't need to resort to force, fraud, or coercion. When 
Immigration Customs Enforcement finally busted the brothel in which 
Katerina was being bought and sold, the only federal crime they could 
charge her traffickers with was prostitution. Although these 
traffickers had prostituted Katerina and many others like her, reaped 
huge profits from their exploitation, and left Katerina drug addicted 
and suicidal, their sentence was a single year in prison.
    In other cases, traffickers use force, fraud, or coercion but their 
victims are too terrified to testify about it, often because the 
traffickers threatened to harm family members abroad. The need to prove 
force, fraud, or coercion makes it all but impossible for any sex 
trafficking prosecution to go forward without a victim willing and able 
to take the stand, to testify at length about her abuse and sexual 
exploitation, and to undergo brutal and humiliating cross-examination. 
When victims facing such an ordeal refuse to testify, as they often do, 
prosecutorial strategies to force them to testify often only serve to 
deepen their trauma and may even result in testimony that is beneficial 
to the traffickers.
    Sex trafficking victims are often put into situations in which 
their very survival is contingent on their outward compliance with 
their traffickers' demands. Victims not infrequently have to pose 
smilingly for pornographic pictures, dance with customers, sign 
prostitution contracts, and even marry their traffickers, all of which 
is later used by defense counsel to prove that the victims were 
``willing prostitutes,'' not trafficking victims. If all that was 
required was to show proof of sex trafficking itself, not force, fraud, 
or coercion, such evidence would either be stricken as irrelevant or 
deemed probative of sex trafficking.
    Requiring prosecutors to prove force, fraud or coercion wrongly 
puts the onus on victims, who must be proved ``innocent'' of willingly 
having engaged in prostitution, rather than on traffickers, whose 
criminal actions should be the focus of prosecutions. Much as 
prosecutors once had to prove ``earnest resistance'' in rape cases to 
show the victim was worthy, prosecutors in sex trafficking cases have 
to prove force, fraud and coercion to demonstrate the bona fides of the 
trafficking victims.
    Even worse, requiring prosecutors to prove force, fraud or coercion 
places victims and their families abroad in greater danger. The 
smartest and most ruthless traffickers realize that using violence and 
threats of violence brutal enough to terrorize victims into silence is 
a good business practice. As long as force, fraud and coercion are 
elements of the offense, the worse traffickers are the more unreachable 
they remain.
    The TVPA's unnecessarily onerous proof requirements have not only 
hobbled trafficking prosecutions in the United States. Other countries, 
most recently Mexico, have adopted federal anti-trafficking laws, 
modeled after ours, that require proof of force, fraud, or coercion in 
sex trafficking cases. With some of the most ruthless and brutal 
trafficking rings in the world, and correspondingly some of the most 
terrified victims, Mexico needs a law that takes the onus off victims, 
not one that puts them squarely in the traffickers' crosshairs.
    What is the solution? The force, fraud or coercion requirement of 
the TVPA is not present in other federal laws that have been used 
successfully to prosecute sex traffickers. The Mann Act criminalizes 
anyone who ``knowingly persuades, induces, [or] entices . . . an 
individual to travel in interstate or foreign commerce . . . to engage 
in prostitution.'' Similarly, Title 8 USC Section 1328 of the 
Immigration Code penalizes ``importing and harboring aliens for 
purposes of prostitution.'' Unfortunately the TVPA has all but 
effectively supplanted these older laws. And even if they were used 
more frequently, the criminal penalties of these earlier anti-
trafficking statutes are not adequate to deter the crime of sex 
trafficking or give its victims the satisfaction of knowing that 
justice was served.
    While federal prosecutors should be encouraged to dust off and 
begin to use older laws to prosecute sex traffickers, this country's 
most recent and best recognized anti-trafficking initiative--the law 
that has become the model for anti-trafficking legislation domestically 
and internationally--must be a more effective deterrent to sex 
traffickers. The TVPA must be amended to eliminate its unnecessary and 
onerous proof requirements for federal sex trafficking prosecutions, 
which only serve to intensify the danger and humiliation of cooperation 
for victims.
    An important postscript: the force, fraud, or coercion requirements 
that have stymied sex trafficking prosecution at the federal level have 
also sabotaged state anti-trafficking efforts. How did this happen? A 
few years after the passage of the TVPA, the Department of Justice held 
a conference in Tampa, Florida that unveiled a model anti-trafficking 
law for states. That law made proof of force, fraud, or coercion a 
requirement for prosecuting sex traffickers. Well over half the states 
then passed state anti-trafficking, most borrowing heavily from the 
Justice Department model law. Just as the TVPA came to supplant the 
Mann Act, new state anti-trafficking laws began to supplant existing 
laws against pimping. The predictable upshot: a dearth of successful 
prosecutions under the new state anti-trafficking laws.

    Chairman Conyers. Thank you. And you have joined an issue 
here that we will be discussing with you and Mr. Rothenberg 
very soon.
    I ask unanimous consent to put The Washington Post article 
entitled, ``Slavery Did Not End with the Civil War.''
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Conyers. And I want to ask our first witness who 
went to the Immigration and Customs Enforcement for help even 
though she was obviously disturbed, upset, afraid, and I just 
want her to tell us what kind of help she got.
    What services were made available to you? And were there 
things that you would want to tell us about that may need to be 
changed as a result of your experiences?
    Katya. I want to say that ICE was really good to me. I 
received great help, great benefits, medical attention, a place 
to stay, shelter, and money for food. Everything was really 
good.
    But the only one issue was a week that was given us $20, 
food stamps, which was not enough. And I couldn't survive with 
that amount of money. Everything else was perfect.
    Chairman Conyers. Anything else you want to tell us about 
how you were treated?
    Because what we are doing is developing the law, and we 
want--you are the only one that brings the unique experience of 
what has happened in a very subjective way to us. So if you 
think of anything else you would like to add, feel free to 
intervene and let us know about it.
    Katya. Okay.
    Chairman Conyers. Mr. Rothenberg, I wanted to engage you 
and Ms. Leidholt in just a discussion about the differences of 
the positions that have been brought forward, in terms of the 
model legislation that we are examining.
    Mr. Rothenberg. Well, it is, of course, the case that the 
Federal anti-trafficking law relies on force, fraud or coercion 
or anything involving a minor for sex trafficking, because a 
minor is presumed not to be able to consent.
    The reason we focus on that is, of course, that is the 13th 
amendment against slavery. Force, fraud or coercion is our hook 
into our constitutional authority to prosecute for that basis.
    I am not sure I really agree with some of the premises of 
the testimony we just heard, that we are losing cases because 
of that. And I also don't believe that there are any shortcuts 
to a prosecution. Any prosecution requires proving elements of 
a crime. And I don't believe that one can say, because we 
eliminate force, fraud or coercion, we will get more 
prosecutions.
    Also, I should add, we do bring a lot of Mann Act cases. We 
use the statute. In fact, I can send you some figures on this. 
But the figures that we have are that, prior to the focus on 
anti-trafficking in the early part of the 2000's, there were 
very few Mann Act cases brought, but in the last few years, we 
have used the Mann Act in many, many cases.
    We often bring it as a charge in other trafficking 
instances. So, just for those purposes where if we have some 
trouble proving force, fraud or coercion but we still think 
that there was still sex trafficking going on, we use the Mann 
Act charge.
    Chairman Conyers. Thank you.
    Ms. Leidholt, how would you add to our conversation this 
afternoon?
    Ms. Leidholt. Certainly we commend the Justice Department 
for using the Mann Act for sex-trafficking prosecutions. The 
Mann Act has its own proof hurdles which can stymie sex-
trafficking prosecutions--a requirement that the victims be 
transported across State borders, for example, as opposed to a 
broader requirement that simply the trafficking affected 
interstate commerce.
    But there is no question but that these proof requirements 
stymie sex-trafficking prosecutions around the country. And 
while the Justice Department points to many sex-trafficking 
prosecutions and labor-trafficking prosecutions as well, many 
of which are successful, many are not, in fact, being 
prosecuted under the TVPA because of the burdensome nature of 
these proof requirements, which are especially onerous in sex-
trafficking cases.
    It essentially requires the victim to take the stand and go 
into great detail about the abuse that she has suffered, and 
much of it involves a great deal of humiliation. It makes any 
proof that defense counsel can put together--and often there is 
this kind of proof in these cases. For example, a photograph of 
a victim dancing with a customer, a photograph of a victim 
smiling in a pornographic picture. And we know the kind of 
coercion that, of course, was behind that, but that of course 
is going to be used by the defense counsel to say she was 
complicit; there was no force, fraud or coercion. Victims 
shouldn't be put in this kind of dilemma.
    And if we removed the force, fraud or coercion requirement, 
as Congresswoman Maloney suggests, by importing revised Mann 
Act provisions into the crime of sex trafficking, we wouldn't 
be having this problem. Don't we want to be able to get at 
these traffickers?
    Just one other scenario that we are seeing is that victims 
who have been subjected to force, fraud or coercion by sex 
traffickers in the most classic ways are then passed from 
trafficker to trafficker to trafficker. The subsequent 
traffickers may not need to use the force, fraud and coercion, 
because the victims are so devastated. We can't get after those 
traffickers, go after those traffickers under the TVPA.
    So we urge the Judiciary Committee to really look at these 
proof requirements and think about how we can resolve this 
situation so we can go after sex traffickers and not subject 
victims to humiliation and continued abuse, this time by our 
legal system.
    Chairman Conyers. Thank you so much.
    Let me bring Ms. Farrell into this, because we are trying 
to find out where you come in on this.
    I would like to hear from everyone here today.
    But do police lack the statutory tools needed in their 
State criminal codes to address this question of prostitution 
and pimping? Are many of the police officers involved in task 
forces already also involved in vice squads? Does a human-
trafficking case differ from a pandering or a pimping case, in 
the experiences of your research subjects?
    Ms. Farrell. Thank you for the question.
    In terms of looking at the trafficking task forces and the 
responses of local law enforcement, one of the things that we 
have seen is that on these task forces, local law enforcement 
knowledgeable about existing laws--existing State statutory 
laws around pimping, pandering, enticement--tend to be 
affiliated with these task forces. And if the cases can't be 
made under Federal human-trafficking violation, there is often 
a movement to try to make those cases under statutory law.
    Now, clearly the crimes that we are talking about today are 
horrific. And one of the solutions to that would be to change 
the evidentiary standards necessary to prosecute those crimes. 
But I could suggest that this could cause some tremendous 
problems for local law enforcement. It confuses the definition 
of what human trafficking is. It causes people to move away 
from focusing on force, fraud or coercion. Local law 
enforcement may be very confused by the fact that something 
that they for years categorized as prostitution or pimping or 
pandering is now conflated with definitions around human 
trafficking.
    I would suggest that we have had an experience with this, 
with the hate crime legislation, that might be instructive 
here, which is in the 1990's, in the late 1990's, there were 
efforts by some States to include rape and offenses of rape in 
hate crimes, on the basis that they were forms of gender 
discrimination, and there was a movement to get these included 
in the elements. And what ended up happening is that regularly 
those were not included in State statutes. And the suggestion 
by the hate crimes movement was that laws should be changed 
around rape to make those penalties more severe and punishment 
more certain.
    If the problem is how another law is being applied, the 
solution is not necessarily to change a law like human 
trafficking to remedy those problems. So I would suggest that 
there are some definition problems that would be challenging to 
local law enforcement if such a change were made.
    Mr. Rothenberg. May I add something?
    Particularly with regard to States, as you have heard, we 
have 42 human-trafficking task forces which involve State and 
local and Federal, range of service providers, law enforcement, 
DHS, ICE; FBI is involved, along with State and locals. And 
what we do in these task forces is we attack the problem. All 
right? We don't go out and say, ``We are going to go enforce 
Section 15.'' We attack the problem. We look for victims; we 
find victims in the situation. And then, based on what 
situation we find, we start figuring out, okay, do we have a 
trafficking case here, are we going to prosecute it federally, 
are we going to have the States take care of it, and those 
sorts of things.
    We currently now have a great relationship with the State 
and local law enforcement and prosecutors. And we are able to 
deal with a lot of these cases. That kind of relates to the 
model State law that was brought up. What we were finding is 
that, prior to the focus on human trafficking, many State law 
enforcement agencies and local vice cops did not recognize, 
when they came across a prostitution situation, that it was 
actually human trafficking. So, by sort of pushing out to the 
States and locals this model law, we were putting them on 
notice, that, ``What you might think is prostitution is 
actually human trafficking. Here is the way that you need to 
attack it. Because there is force, fraud or coercion. This 
isn't prostitution that you are familiar with, where you lock 
up the prostitutes. This is human trafficking. You have to 
provide the victims with benefits. You have to get them out of 
that situation. Don't throw them in jail.''
    So I would say that, far from causing a problem at the 
State level, we have highlighted the issue. We have provided 
them an example of more effective tools to attack the problem, 
with far more penalties provided for in the law against the 
people who commit these crimes.
    Chairman Conyers. That is very interesting.
    I see we are going to have to try to separate this out. And 
so I will call on Howard Coble, the gentleman from North 
Carolina, senior Member of the Committee.
    Mr. Coble. Thank you. Thank you, Mr. Chairman.
    Good to have you all with us.
    And, Katya, we particularly appreciate your testimony.
    Folks, we only have 5 minutes, so if you could keep your 
answers tersely, we can cover more ground.
    Ms. Burke, do you believe that trafficking victims are more 
likely to testify if they know their captors will be confined 
to longer prison terms?
    Ms. Burke. I think that definitely victims are more willing 
to testify if they know that they are captors are incarcerated.
    As to the length of prison terms, I think that, in 
reviewing in my head victims I have talked to, there is always 
great concern and sometimes anger when they hear about 
sentences that they think are too short. So I think that that 
makes it incumbent for the prosecution team and the service 
providers to always be in touch with the victim about the 
length of sentence.
    Mr. Coble. Okay, that is good. Thank you.
    Mr. Rothenberg, let me put a two-part question to you. Has 
the Trafficking Victims Protection Act assisted the Justice 
Department in its battle against human trafficking, A? And, B, 
what are the greatest hurdles facing prosecutors in human-
trafficking cases?
    Mr. Rothenberg. Yes, the TVPA has been a tremendous 
assistance to us.
    And I think, looking back at the history, as some people 
have mentioned here today, before the Act was passed in 2000, 
people did not recognize human trafficking for what it was. And 
since it has been passed, we have been focusing not just on 
finding victims, rescuing them, making the prosecutions, making 
the cases, but also raising awareness of the problem. And 
having one statute that we can focus on, one statute that 
provides us all of the tools necessary to go after these 
people, put them in jail for a long time, provide benefits to 
victims, has been tremendous.
    Mr. Coble. All right. How about the hurdles?
    Mr. Rothenberg. Well, I am limited in what I can say about 
funding, but----
    Mr. Coble. Well, maybe we can talk about that at another 
time.
    Mr. Rothenberg. I would say that--I am informed that, in 
fact, I am allowed to say that we need more prosecutors and 
resources for our investigative----
    Mr. Coble. All right.
    Ms. Forman, two-part question to you. Has the use of T 
visas been successful, A? And, B, I presume that the recipients 
are, in fact, eligible for some form of public assistance?
    Ms. Forman. The first part of the question, in terms of T 
visas, have certainly been helpful, in terms of granting a 
benefit to a victim. Certainly, ICE doesn't authorize those T 
visas. I mean, certainly, there has to be a certification of a 
victim. And working with the NGOs and the individual, I mean, 
they certainly have to agree to cooperate, in terms of pursuing 
the investigation and going after the organizations.
    Mr. Coble. Dr. Farrell, you may have responded to the 
Chairman's question, but let me ask you this. What legal 
requirements would you adjust to ease the burden of prosecuting 
human-trafficking cases?
    Ms. Farrell. I don't know that I would necessarily suggest 
changing the legal requirements.
    I mean, one of the things that we certainly have seen in 
the prosecution of these cases is that new strategies may need 
to be developed to figure out how you can bring cases forward 
without relying as heavily on the victim testimony. And there 
are things in this act that I think help improve victim 
testimony, and there is some interesting language at looking at 
ways to use innovative strategies to prosecute cases under non-
force, fraud or coercion that would be discussed at national 
conferences where these task forces come together. And I think 
those strategies would definitely be useful in those cases 
where you identify a harm but can't necessarily use the TVPA.
    Mr. Coble. I thank you.
    Finally, Mr. Rothenberg, is human trafficking and organized 
prostitution in the United States increasing or decreasing?
    Mr. Rothenberg. Well, it is very difficult to get a handle 
on the problem. We are trying. We are funding numerous studies 
to do that.
    As you are aware, there are a lot of estimates out there, 
but it is a hidden crime and we just don't know what the extent 
it of is, because so many of these victims are deliberately 
kept hidden by the traffickers.
    So that is part of the reason that we have made such an 
effort to reach out to State and locals. As one of the 
witnesses said, it is the States and locals who are on the 
ground, the vice cops, the cop on the beat. And what we need to 
do is educate them to look for the signs of trafficking so that 
they can bring these victims out of the shadows and we can 
rescue them.
    Mr. Coble. Mr. Chairman, the witnesses were terse in their 
response, and I almost beat the red light. I yield back.
    Mr. Scott. I thank the gentleman from North Carolina.
    I recognize myself for 5 minutes.
    Mr. Rothenberg, in the 2005 reauthorization, Congress 
authorized a biennial survey of the commercial sex industry in 
the United States. Could you tell me the status of that study?
    Mr. Rothenberg. We are working on that study. It is 
difficult to design a scientifically valid study that would be 
useful for us and gather all the data in a short period of 
time. So we are working on that study.
    Mr. Scott. You mean you are designing the study now?
    Mr. Rothenberg. We are not designing the study now. I mean 
the reason it hasn't been completed yet is we have been working 
on it. And we do have funding for it. And the Bureau of Justice 
Statistics is working on it.
    Mr. Scott. And when can we expect some information as a 
result of the study?
    Mr. Rothenberg. I don't have that with me, but I can get 
back to you on that.
    Mr. Scott. Thank you.
    Ms. Burke, in your testimony you discuss the fact that the 
TVPA, including the reauthorizations in 2003 and 2005, provided 
for funding for immigrant victims while failing to do so for 
United States victims. Can you comment on that and state 
whether we should remedy that situation?
    Ms. Burke. I think that the point I really would like to 
make is that there is a lot of expertise among service 
providers working in the field of human trafficking, and some 
of the funding restricts those programs to provide services 
only to foreign-born victims of trafficking. And I think we 
need to eliminate those restrictions, so that programs who have 
expertise in service provision can also provide services to 
U.S. citizens.
    And I think that those organizations that are skilled in 
working with exploited children and other programs need to join 
forces to attack this program on a broader view.
    Mr. Scott. Thank you.
    Mr. Rothenberg. Mr. Chairman?
    Mr. Scott. Mr. Rothenberg?
    Mr. Rothenberg. Sorry. If I can say, that study will be 
completed by mid-2008, mid next year.
    Mr. Scott. Mid-2008. Okay. Thank you.
    Ms. Leidholt indicated the problems with requiring force, 
fraud and coercion. Mr. Rothenberg, would there be any problem 
in eliminating that in the Federal statute?
    Mr. Rothenberg. Well, it raises a lot of questions. As I 
said earlier, I would stand by our prosecutions now. But there 
are a lot of questions that will come up with that. For 
example, as I did mention, what would it do to the relationship 
between us and the States? And one of the other witnesses also 
mentioned that----
    Mr. Scott. Well, you would have to have a Federal nexus 
either in or affecting interstate or foreign commerce or 
crossing State lines?
    Mr. Rothenberg. Yeah. Of course, there would have to be a 
Federal nexus in order for us to have constitutional authority 
to do it. But even if we had that Federal nexus, I think it 
could raise a lot of issues. It would raise resource issues, in 
terms of where we would prioritize our prosecutions. At the 
moment, we prosecute force, fraud or coercion. If we were to 
expand that, it could bring a lot of new cases before us that 
we simply don't have the----
    Mr. Scott. If the problem with that is the interaction 
between State and Federal prosecutions, why would we insist on 
having that in the model State statute?
    Mr. Rothenberg. I am sorry, I meant to say that eliminating 
force, fraud or coercion, as one of the other witnesses 
testified, and using that as the basis for Federal prosecutions 
could harm the balance that we have between Federal and State 
prosecutions that we currently have going on.
    Mr. Scott. Right. But you, in your model State statute, you 
include force, fraud and coercion. Why would you do that?
    Mr. Rothenberg. Because, as I said before, our purpose in 
doing the model State statute was to highlight for the State 
and locals that what they previously had thought of as 
prostitution was actually human trafficking. And, as we know, 
the----
    Mr. Scott. Well suppose, for the reasons that have been 
articulated, that the proof of force, fraud and coercion might 
even be counterproductive, because that only encourages the 
perpetrators to intimidate the witness even more.
    If you can prove the case without having to prove force, 
fraud and coercion--I mean, can't you almost presume some kind 
of coercion? I mean, people just don't decide this on their 
own.
    Mr. Rothenberg. Well, I----
    Mr. Scott. Do you have a problem eliminating that from your 
model guidelines?
    Mr. Rothenberg. It would raise a lot of questions for us. 
We don't have a position on that. I know that is in the bill, 
and we have been discussing it. But as we have been reviewing 
this, as I say, it raises a lot of issues for us.
    Mr. Scott. Like what?
    Mr. Rothenberg. Well, for example, if we eliminated that, 
as I said, what effect would that have on our relationships 
with the States?
    Mr. Scott. It would be a State issue.
    Mr. Rothenberg. Do you mean eliminating it from----
    Mr. Scott. Model guidelines.
    Mr. Rothenberg. I am sorry. I thought you meant in terms of 
the Federal statute.
    Mr. Scott. What is the problem with eliminating the 
requirement of force, fraud and coercion from the model 
guidelines?
    Mr. Rothenberg. Well, I just don't think that that is what 
the model State statute's purpose was. I mean, the model State 
statute does not in any way eliminate existing statutes on----
    Mr. Scott. But it encourages them to put force, fraud and 
coercion as an essential element in their prosecutions.
    Mr. Rothenberg. For human trafficking. But, as we have 
said, these sorts of cases can be brought under lots of 
different statutes.
    Mr. Scott. Not if you stick force, fraud and coercion in 
the other statutes, because that is the model recommendation.
    Mr. Rothenberg. Well, this was a model anti-trafficking 
law. It doesn't in any way displace existing laws against 
prostitution and pimping.
    Mr. Scott. And so, for those, whatever you want to call it, 
you would not expect force, fraud and coercion to be in those 
statutes?
    Mr. Rothenberg. Well, it depends upon the State, but a 
State can prosecute a pimp under lots of different statutes 
that are currently on the books. What we were doing, as I say, 
was trying to highlight for people what you think is 
prostitution can actually be punished as human trafficking.
    Mr. Scott. Remind me of the difference between pimping and 
trafficking.
    Mr. Rothenberg. Well, in our conception, the difference is 
force, fraud or coercion. I mean, I understand that pimps often 
use violence and subject people to lots of different forms of 
coercion and so forth. But at least in the way that TVPA was 
originally conceived and the way that we focused on two sets of 
victims--the victims of force, fraud or coercion and children--
those are necessary elements to make it human trafficking and 
the depravation of liberty.
    Mr. Scott. And you are suggesting that there can be pimping 
without force, fraud or coercion?
    Mr. Rothenberg. Well, I think there are certainly 
situations in which people are driven to become prostitutes 
by----
    Mr. Scott. Coercion.
    Mr. Rothenberg. Well, coercion can be read very broadly. I 
mean----
    Mr. Scott. Fraud.
    Mr. Rothenberg. Yes, and if fraud, force or coercion were 
used, we would prosecute it as human trafficking. But I don't 
think that every prostitute is necessarily a victim of human 
trafficking.
    Mr. Scott. No, that is prostitution. I said pimping.
    Mr. Rothenberg. Well, again, if the pimping involves force, 
fraud or coercion, then that would be human trafficking, and it 
would be prosecuted as such.
    Mr. Scott. And you think this activity is done without 
force, fraud or coercion. If you can just prove the 
transactions, that is not enough for you to consider it 
trafficking?
    Mr. Rothenberg. Well----
    Mr. Scott. If someone is living off the earnings of this 
activity and you can prove that, do you think you need to prove 
some more to consider it trafficking?
    Mr. Rothenberg. Yes. By law, we need to prove force, fraud 
or coercion. That is the way that we conceived of it.
    Mr. Scott. That is because you put it in the law.
    My time has expired.
    The gentleman from Iowa.
    Mr. King. Thank you, Mr. Chairman.
    I want to thank the witnesses, all, for your testimony.
    I direct my first question to Ms. Forman, and ask you, in 
the bill, it defines that the presentation of multiple forms of 
evidence, including nonexclusive use of radiographs, determine 
age. Is there another method to determine age that is as 
reliable or more reliable than radiographs?
    Ms. Forman. I would have to get back with you on that. It 
is not my area.
    Mr. King. Is there anyone on the panel that has any 
expertise on radiographs?
    I would be surprised--I would just submit here that my 
reason for asking that question is that, if documents might be 
used to supplement radiographs, if they are a nonexclusive use, 
one should have a judgment as to whether that might be subject 
to document fraud. So if there is another medical reason or 
something of hard evidence, then I would want to know about 
that. But radiographs apparently are the best medical version 
we have.
    I wanted to also ask Katya--and I thank you for coming 
here. It took a lot of courage. And so, I appreciate your 
testimony, as well as all of the others'.
    I wanted to ask you, the perpetrators--as I understand, 
there were two in this country. Were they arrested, prosecuted 
and convicted and sentenced?
    Katya. Yes, there was prosecuting.
    Mr. King. And what were the sentences? Do you know?
    Katya. One, I believe, was sentenced to 7 years. And Alex 
was sentenced, I believe, to 12 years.
    Mr. King. Were those sentences adequate for the crime they 
committed? Do you believe that justice was served? Or if you 
had to choose, would you want that to be more or less sentence 
for them?
    Katya. Definitely more. But I believe justice--she did what 
she could to make it longer.
    Mr. King. And I would submit that crime victims almost 
always take that position, and I recognize and appreciate that.
    I would point out that this bill actually reduces existing 
penalties, in some cases, and that is something I hope we look 
at as a Committee, in light of the testimony that you have 
given. And I thank you, Katya, for that.
    And I watched--Dr. Burke, I do have a question for you. And 
I believe that you testified as to, I'll call it, family 
reunification, the need to keep families together so that they 
are not vulnerable to threats in foreign countries.
    And my question to you--and I think also to Ms. Brown, who 
also spoke to the issue--is, how far would you go with that? 
Would you draw the limits to parents; parents and siblings; 
parents, siblings, half-brothers, half-sisters, cousins? Where 
would you draw that line? Because we have to ask those tough 
questions here.
    Ms. Burke. I appreciate those are tough questions. And I 
think that, in replying, I can only say that it depends on a 
case-by-case basis.
    Katya testified that things would have been much easier if 
her mother had been here with her during this ordeal.
    You know, I can't give a blanket answer to that, but I 
think that those family members most close to the victim and 
who the victim needs to have there during the time of support--
and, also, I think it is linked to whether or not these family 
members are being threatened with retaliation.
    Mr. King. And, of course, we have to define this in law, 
which gets significantly more difficult. But I appreciate your 
approach on that.
    Ms. Brown?
    Ms. Brown. Yes, I would also support that. In many of these 
instances, the closest remaining relative may not be an 
immediate relative in the definition of the law. So, as an 
example, a grandmother may be the last surviving member of the 
family that would be supportive to the child.
    In addition, who the child, in this instance, feels is the 
most in danger of the traffickers coming after them. For 
instance, they may have said to this child, we are going to 
take your sister, we are going to take some other member of the 
family.
    Mr. King. Would you limit that to a number of people, then? 
Would you ask the victim to list close family members and limit 
that to a number? How would you define that?
    Ms. Brown. I would not necessarily limit it to a number. I 
think that it is something that we need to look at with each 
child. As you say, it needs to be defined in law. But, for 
instance, if the child was related to six other sisters who 
were all under the age of a certain frame, that may be 
something that needed to be considered.
    Mr. King. Thank you, Ms. Brown.
    I ask Ms. Forman, can you tell me how someone might, either 
individually or as an organized group, game this system?
    Ms. Forman. Certainly. I mean, first, there is 
individuals--I mean, you have to do a case-by-case assessment, 
because there are many individuals who want to come into this 
country. And we have certainly seen every day, on a daily 
basis, fraud being used, fraudulent documents and lies, and 
people who come into this country legally and overstay their 
visas.
    I will add that we do have something called significant 
benefit parole. And during these human-trafficking cases, we 
offer that to the victim and to the victim's relatives, as 
well. And ICE can help facilitate that.
    Mr. King. Thank you.
    It is Dr. Farrell, isn't it?
    I might have missed a couple of other doctors up there. You 
are all designated as not necessarily your professions.
    But I am interested in--first of all, I appreciate your 
intensity. And I have an idea about how hard you must work in 
the work that you have chosen for your life's profession.
    And I would ask you, if you can inform this Committee, what 
were some of the first examples of the implementation of hate 
crime statutes, anywhere in the world, where it originated, 
where it originated from?
    Because, as I look back into the cradle of civilization, I 
am trying to find out when we first came up with this idea that 
we could punish the intent of the criminal rather than the 
actual act of the criminal.
    And how did this evolve and get to this point, where we are 
passing judgment and punishing people for what we think they 
thought or what we believe they thought or maybe even what you 
believe we prove they thought.
    Ms. Farrell. While I don't want to not answer your 
question, because it is an extremely important one, I do want 
to say that I don't want to take us away from our discussion 
about human trafficking today.
    I mean, there are many origins of hate crime across Europe 
and the United States that came out of a variety of different 
people coming together around a common idea. And I would be 
happy to talk to you more afterward about the specific issues--
--
    Mr. King. Just give me the first case, the first year, the 
first time and which civilization.
    Ms. Farrell. I don't actually have that at the top of my 
head.
    Mr. King. I would appreciate that and a supplemental report 
on that. I am a little bit surprised, as much as you know about 
hate crimes and as long as you have worked there, that that 
wouldn't be the beginnings of your education and your learning 
and the foundation for your judgment on that today. But I am 
looking forward to that response.
    I thank you and I thank all the witnesses, especially 
Katya, for being here today.
    And I yield back to the Chairman.
    Mr. Scott. Thank you.
    The gentlelady from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I am a cosponsor of this bill and think it is a good 
measure. Obviously this hearing is important, to see if there 
are improvements that can be made. But sometimes it is not just 
what is in the law, but how it is administered.
    And one of the questions that I have, I had the same 
question for the Secretary of State--the Chairman and I and the 
Ranking Members of the full Committee and Immigration 
Subcommittee met with Secretary of State Rice last month--which 
is the situation of child trafficking victims.
    The State Department estimates that there are 5,000 a year, 
yet we have only identified about 20 a year. And I guess I know 
the U.S. Conference of Catholic Bishops has been very active in 
this arena.
    I am wondering, you know, the Office of Refugee 
Resettlement, you have suggested in your testimony, has been 
slow in certifying child trafficking victims, even though they 
have the authority. Is that the problem? I am trying to sort 
through why this isn't working better, even though it seems 
like we have the legal tools available.
    Do you have an opinion on that?
    Ms. Brown. Thank you.
    Yes, one of the issues truly is that the victim who is a 
child must be, not certified, but determined to be eligible by 
HHS ORR. However, in practice, they rely on a recommendation 
from law enforcement agencies, DHS, in order to actually make 
that recommendation.
    What then happens is that the child is either languishing 
and not actually being cared for at all by anybody or in a 
system which is a removal system so that the child may, in 
fact, be removed in an expeditious manner.
    Additionally, children have a very difficult time, 
sometimes, speaking correctly on the issue of the fact that 
they have been forced, coerced, and don't even want to believe 
that that has happened to them. And so, we find that the child 
who is in care with people with child welfare expertise who is 
able to speak to that child, we have had much more success with 
those children.
    Ms. Lofgren. So do you think the new custody provisions in 
here are going to help on that?
    Ms. Brown. I do.
    Ms. Lofgren. That is very interesting. It is something I 
have wanted to do for a long time. And I think that, you know, 
there are humanitarian reasons, but there is also a very strong 
law enforcement reason, which we have heard both from U.S. 
attorneys and the like who have this responsibility. It is good 
to hear your views.
    Mr. Myles, did you have something to add on that?
    Mr. Myles. I just wanted to add something briefly, sort of 
in light of the testimony that I gave and others gave. I think 
it is very important, again, when we do talk about the face of 
trafficking, that we always include the face of those 
trafficked into the U.S. who are from other countries, but also 
those trafficked within the U.S. who are U.S. Citizens.
    And if we are talking about the face of child trafficking 
in the U.S. and we were not restricting it to foreign nationals 
or U.S. citizens, we are talking about a lot more children than 
5,000 children. Because I think that that statistic is 
reflective only of the foreign nationals.
    Ms. Lofgren. Right. I didn't mean to suggest that. I was 
thinking of--the State Department, obviously, is looking at the 
foreign trafficking victims. I didn't mean to include every 
victim in their figure. That is not their responsibility to 
estimate.
    I am wondering, Dr. Burke, whether you had also identified 
a deficiency in identifying child victims. Are there additional 
things that we should do in this bill to assist that, do you 
think?
    Ms. Burke. Most of my work has been with adult victims.
    Ms. Lofgren. Okay.
    Ms. Burke. But in thinking of a child case that we worked 
on, I know that it was very difficult for this child to provide 
any concrete information about where he had been trafficked, 
where he had been forced to work. He was driven around a large 
geographical area by law enforcement.
    But what I would say, as a mental health person, this child 
came from a country in the Middle East that was undergoing a 
war. He had seen his home burned and his parents murdered. And 
then someone trafficked him here and put him to work. Now, 
doesn't it make sense that he couldn't identify where he 
worked?
    Ms. Lofgren. Yes. Yes.
    Just one final question, Mr. Rothenberg.
    Mr. Smith, the Ranking Member of the full Committee, had a 
number of criticisms this morning--I do not know if you heard 
his testimony--including concerns about some of the immigration 
provisions in the Act. Certainly, we want to have a system that 
works well.
    Do you think it is important to have a visa component if we 
are going to do these prosecutions in this bill?
    Mr. Rothenberg. A visa component?
    Ms. Lofgren. Right.
    Mr. Rothenberg. Well, we do currently have the T visas, and 
that is a very important victim protection part of the law. 
That is part of our victim-centered approach is to give people 
T visas. These are people who have been taken from their homes 
or even left willing, but then found themselves in a 
trafficking situation in a country where they might not know 
the language. We have to provide some way for them to stay here 
and to recuperate from that while we build the case against the 
people who did that to them, so we are very supportive of that.
    I do want to add, with regard to the treatment of victims, 
the Department and the FBI and, I am sure, our partners at ICE 
take very seriously the provision of services to victims, 
especially child victims. We do feel, however, that law 
enforcement has a very important role to play in the 
certification of victims and the provision of letters of 
eligibility, mainly from the perspective of protecting the 
victims' safety, especially for children, but for all victims. 
It is really crucial, and there have been many cases where the 
victims have been--or rather, I should say, the traffickers 
have sought out the victims after the victims have been 
rescued. We have to provide not just shelter; we have to 
provide safe shelter for them, and if law enforcement is not 
there, who is going to do that even for the NGOs and for the 
service providers themselves? Because if traffickers come and 
try to recapture those victims, the NGOs and their workers 
might be in danger.
    Also, a provision of services to victims is very important, 
but we want to make sure that there are not any future victims. 
So, if law enforcement is involved right away, we can talk to 
the children and find out, you know, that maybe that child 
managed to escape, but there are ten other children who are in 
that circumstance. If we have that information, we can go 
rescue those children and shut down the trafficking network.
    So it is very important to find more victims and to provide 
them services, but it is also important to have law enforcement 
involved right from the beginning to make sure that the victims 
are safe and to make sure that there are not any future 
victims.
    Ms. Lofgren. My time has expired, Mr. Chairman.
    I would just like to say to Katya how impressed I was by 
your testimony and your poise and how grateful we are for your 
courage in coming here today and for sharing your story, which 
is a very meaningful one for all of us. Thank you.
    Katya. Thank you.
    Mr. Scott. Thank you.
    The gentleman from Florida, Mr. Keller.
    Mr. Keller. Thank you, Mr. Chairman.
    I want to begin by also expressing to Katya how impressed I 
am with your testimony and how much all of us admire your 
courage in coming forward today and in taking a very horrible 
tragedy and trying to make a difference in other people's 
lives, and so your testimony has made a difference and did not 
go unnoticed. I would like to ask you a question.
    Do you feel safer in the United States or in the Ukraine? 
Tell us why.
    Katya. Definitely, I feel safer in the United States 
because I still have the father of Alex. He is in the Ukraine, 
and he is a really big person there, and definitely, I hope to 
stay here.
    Mr. Keller. He is not confined in prison? He is going 
around free in the Ukraine?
    Katya. Yes.
    Mr. Keller. Alex and Michael are serving terms in prison, I 
believe you said, for 7 years and 12 years, correct?
    Katya. I believe so.
    Mr. Keller. Okay.
    Next, I am going to turn to some of the other witnesses.
    Thank you for your testimony, Mr. Rothenberg and Ms. 
Forman.
    No bill is perfect. No bill that I write is perfect or any 
other bill, but as I look at this bill, which has a lot of good 
things, it is my understanding that the bill lowers the 
criminal penalty for trafficking for the purpose of forced 
labor from 5 years to 1 year.
    If the goal is to punish human traffickers for enslaving 
victims and to deter others, why should we reduce those 
penalties? Let me be specific about my analysis here.
    I am looking at the current law, which for those lawyers 
out there, is Section 18, U.S. Code, Section 1592. It says, 
``Whoever knowingly engages in forced labor shall be fined or 
imprisoned not more than 5 years.''
    Now I am looking at this bill, pages 62 through 64, also 
with the same title, Section 1592. ``whoever knowingly engages 
in forced labor shall be imprisoned for 1 year unless there 
were $10,000 or more involved, and then it is 3 years unless 
there is also bodily injury, and then it is 5 years.''
    The current law is better. The conduct is so heinous that 5 
years, I think, is a much more appropriate penalty, and if 
there are circumstances that would justify a penalty of less 
than 5 years under the existing law, the judge, clearly, has 
discretion to do the 1-year or 3-year, but I am concerned about 
that watering-down of the provision.
    Let me ask you, Mr. Rothenberg, do you believe that higher 
penalties serve as a deterrent to those who might engage in the 
trafficking of humans for the purpose of forced labor?
    Mr. Rothenberg. We are studying the bill at this moment. We 
have not produced an official administrative position on it, 
but I think, from a prosecutor's standpoint--I cannot say 
specifically on the bill, but I think you can probably imagine 
what prosecutors think about long sentences.
    Mr. Keller. You are not allowed to officially state, 
because it has not had certain clearance, that 5 years is 
better than 1 year but that I can imagine what many prosecutors 
might say to that?
    Mr. Rothenberg. Yes.
    Mr. Keller. Okay.
    Mr. Rothenberg. Let me just add that I do appreciate your 
focus on labor trafficking. We have talked a lot about sex 
trafficking, which is, obviously, a horrible crime, and we have 
heard testimony about it, but we should not forget about labor 
trafficking, which is also horrible, and we see a lot of it--
migrant workers, domestic servants, people forced to cook and 
clean, who are not allowed out of their homes. We have 
prosecuted many of those cases, so----
    Mr. Keller. Some might wonder, since I told you the 
existing law is 5 years, how it is that Katya's abusers ended 
up getting 7 years and 12 years. They abused a whole host of 
criminal laws, I mean, false imprisonment and various other 
crimes that justified the higher sentences.
    Ms. Forman, let me ask you--do you have a view about 
whether a 5-year penalty for those who engage in human 
trafficking for the purpose of forced labor is better than 1 
year?
    Ms. Forman. All I can say is, based on the experience of 
ICE and their investigations in human trafficking, it certainly 
has served to be a much better deterrent in terms of higher 
sentences.
    Mr. Keller. Thank you. I am sensitive to the fact that 
there are certain limits and that it is not your fault that you 
are not allowed to testify fully.
    I would just point out with my remaining time, Mr. 
Chairman, that one of the key reasons we heard from Katya as to 
why she feels safer in the United States is because the bad 
guys have been put away in prison for a long time, and that is 
not the case in the Ukraine. So, as we go toward the markup, I 
hope we will be sensitive to this testimony and will put the 
penalty back where it belongs, at 5 years, as it exists under 
existing law.
    I will yield back the balance of my time.
    Mr. Scott. Thank you.
    I would say to the gentleman that we need to read this 
closely because it is my understanding that the lower sentences 
apply to lesser-included offenses, which might actually expand 
the prosecutions, but we will look at that, and during markup, 
we will make sure that we are not making things worse. Thank 
you for your questions.
    The gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the witnesses very much.
    I understand my good friend, Congresswoman Maloney, was 
here and had a poster board that really evidenced the mental 
violence as well as the physical violence and the deteriorating 
look of women. I hope that, one, the Department of Justice will 
look at that set of pictures--I believe that is from PRISM 
Magazine--and have that as they begin their discussions.
    I am delayed in another hearing, but I tried to use my 
marathon shoes to be here to make a point of, first, thanking 
all of the witnesses for your presence here and to support the 
legislation that my Chairman and others, along with myself, are 
supporting, along with the Foreign Affairs Committee, of which 
I am a Member as well. So let me just try to be pointed in my 
questions.
    Let me formally ask unanimous consent to have the PRISM 
article submitted into the record.
    Unanimous consent?
    Mr. Scott. Without objection, so ordered.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Jackson Lee. Thank you. Thank you very much.
    I will just hold this for a moment and then pass it back. 
This was, certainly, a much better portrait, but for anyone to 
see, you would have to have a microscope here, but you can see 
the deterioration of women, so I just want to express the 
horror of it.
    Let me go to Mr. Rothenberg and ask about the ``force, 
fraud and coercion'' terminology because I am concerned, and 
maybe we can work together. You indicated you needed that 
language. I think it is in the model law, and our concern is 
that sometimes victims are duped. I believe Katya came on a 
student visa. Now, when she got here, there were indicators 
that there was coercion and force in it. So I am concerned 
about those who are duped, those who may be older than Katya of 
whom one would say, ``of course, you knew what you were 
doing,'' and those who were thrown into prostitution.
    So my question is, very briefly--and I do have a number of 
questions--is there some movement on this issue of force, fraud 
and coercion, particularly those who come, maybe, on their own 
will?
    Mr. Rothenberg. Well, certainly, the way we conceive of the 
crime and the way we prosecute the crime is that someone who 
came over here willingly, even somebody who would otherwise 
have been smuggled here but then is subject to force, fraud or 
coercion once they get here, is a victim. The term is ``force, 
fraud or coercion.'' So someone like Katya, of course, and as 
we have heard the case----
    Ms. Jackson Lee. But as to someone who is a domestic 
worker, for example, who may be living the life of Riley but 
who has not learned the language and who does not know what it 
means to have days off or to go off and be free to walk around.
    Mr. Rothenberg. Well, we prosecute those cases, and we have 
prosecuted a case. We have a case going on right now in New 
York.
    Ms. Jackson Lee. Well, let me say this.
    I, certainly, want the Department of Justice to look at 
that carefully. I know you are stuck on that language, but I am 
concerned, and let me raise that on the record as a concern, 
and let me raise it for my colleagues.
    Thank you very much.
    Dr. Farrell, let me ask you about the distinction between 
State laws and, really, moving it to the Federal level and the 
importance of, in essence, the long arm of the Federal 
Government. I have always indicated that we have a 
responsibility to set a national standard.
    Could you respond to that?
    Ms. Farrell. Well, I think that is very true, and we have 
seen this in a variety of other types of crimes where the 
Federal Government has both provided leadership in the 
definition of the crime, which I think we see here with the 
TVPA, and has helped us understand what this crime is and what 
its elements are so then States might know how to interpret 
those same elements and create parallel State codes.
    In addition to that, the Federal laws oftentimes serve as a 
strong punishment against those types of crimes that are so 
severe that additional sentences that can be meted out in the 
Federal system may serve as some type of deterrent effect. We 
have seen this in cases of guns and drugs and gangs and other 
places where there are corresponding State laws and Federal 
laws but where cases go into the Federal system because the 
actual offenses are so egregious that they would apply under 
the Federal Code, and those strong deterrent punishments might 
be able to be used. So they can both lead, and then they can 
also serve as an additional arm of the law.
    Ms. Jackson Lee. I see.
    It looks as if you would like to answer. I cannot see your 
name down there, but I am also asking Ms. Brown to comment. All 
right. Who is next to--one in from the--yes, you.
    Did you have a response to that? Because if you were trying 
to respond, I am sorry. I cannot read your name there.
    Ms. Leidholdt. Yes. Sorry.
    I am Dorchen Leidholdt, and I am from Sanctuary for 
Families' Center for Battered Women's Legal Services and the 
Coalition against Trafficking and Women.
    Ms. Jackson Lee. Thank you.
    Ms. Leidholdt. I just wanted to make the point that in the 
vast majority of trafficking--and we can look at sex 
trafficking in particular--force, fraud or coercion is 
integral. Proving it beyond a reasonable doubt is a different 
story. That is the enormous, enormous problem, especially given 
the high levels of trauma that trafficking victims sustain, 
whether we are talking about a woman who was trafficked from 
the Ukraine into the United States or whether we are talking 
about a young woman on the streets of New York City or 
Washington, D.C. under the control of a brutal pimp. These are 
some of the most traumatized victims of gender violence around. 
As we all know, anybody who works with victims of trauma, it is 
very, very difficult to talk about what you went through, and 
it is sometimes impossible.
    Why do we have to build our successful anti-trafficking 
prosecutions or our anti-trafficking prosecutions on the backs 
of these brutalized victims? Why do we have to inject into this 
a proof hurdle that is going to make it impossible to prosecute 
traffickers?
    I mean, sometimes the Trafficking Victims' Protection Act 
is a wonderful and a revolutionary piece of legislation. I 
sometimes wonder if those three words, ``force, fraud and 
coercion,'' were injected, put into the statute by members of 
the traffickers' defense bar, because it has hobbled 
prosecutors, and there is the fact that States are now looking 
at trafficking in terms of, ``If you cannot prove force, fraud 
or coercion, it is not trafficking.'' What it means is that 
police, service providers and prosecutors look for, if they do 
not see the bruises and if the victim does not show something 
that they can recognize as fear, they think, well, trafficking 
has not taken place here.
    The result is that some of the most brutal traffickers who 
have terrorized their victims into silence are at large to 
continue to prey on some of our most vulnerable women and 
children.
    This is an opportunity to really change this situation, to 
really shift the paradigm, and I hope that the Members of the 
House Judiciary Committee will take this opportunity to make a 
difference for these vulnerable women, children and sometimes 
men and boys as well.
    Ms. Jackson Lee. Well, I wish you could give us, after the 
hearing or as we move toward markup, some of those actual case 
studies that you have suggested because I think you are right, 
and I will just use this example, the kidnapping of the young 
boys who were found just a couple of months ago with a 
perpetrator, a sexual predator, who were living quietly after a 
while and who really succumbed to a father-son--certainly, we 
have kidnapping laws. The point is and what I am concerned 
about is the victim's becoming psychologically dominated so 
that they look like a complacent, happy individual. That is my 
concern as to whether or not that language is what really will 
bring that person to justice. So I thank you for that.
    Mr. Chairman, I would ask Ms. Brown--and maybe I am reading 
the wrong name. Is Ms. Brown here?
    Ms. Brown. Yes.
    Ms. Jackson Lee. Okay. I was trying to ask you about the 
Federal law versus the State law. I mentioned your name.
    Will you be able to comment on the Federal involvement 
versus the State involvement and the importance of that?
    Ms. Brown. As to Federal involvement versus State 
involvement with regard to the law, one of the problems that I 
have seen is that victims--if it is decided to prosecute under 
State law, it could very well be that the victim is not always 
provided the same services. So one of the problems that I--we 
very strongly support State laws, but we should also ask, ``has 
a Federal crime been committed?''
    Ms. Jackson Lee. I thank you. I think you have indicated 
social services are key.
    Let me thank Katya for her testimony and for how courageous 
she has been to be with us here today.
    I yield back.
    Mr. Scott. Thank you.
    I would like to thank all of our witnesses for their 
testimony. Without objection, Members will have 5 legislative 
days to submit any additional written questions to you, which 
we will forward and will ask you to answer as promptly as you 
can to be made part of the record.
    Without objection, the record will remain open for 5 
legislative days for the submission of any other, additional 
materials.
    In the 1800s, survivors such as Frederick Douglass and 
Sojourner Truth bravely spoke out against slavery. They were 
not passive objects in the struggle for freedom.
    Today, Katya did not allow her enslavement or exploitation 
to silence her. Today, she has a voice not just for herself but 
for all who have suffered this heinous crime. Our expert panel 
has shown that survivors, community groups and law enforcement 
can work together to insist on that living promise of the 13th 
amendment, and I commend our witnesses for their commitment to 
fighting for freedom.
    With that, the hearing is now adjourned.
    [Whereupon, at 4:50 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
                       Committee on the Judiciary

    Thank you, Mr. Chairman for holding this important hearing on H.R. 
3887, The Wilberforce Act Trafficking Victims Protection 
Reauthorization Act of 2000, which would reauthorize Anti-Trafficking 
Programs in order to provide tools to ensure the safety of victims, 
including certain changes to the T-visa for trafficking victims.
    Mr. Chairman, the purpose of this hearing is to review the 
implementation of the Trafficking Victims Protection Act of 2000, 
Pub.L.106-386 (``TVPA''), as reauthorized in 2003 (``TVPRA 2003'') and 
2005 (``TVPRA 2005''), and assess what if any additional or different 
provisions are necessary or otherwise indicated for reauthorization 
this Congress.
    Indeed, the issue of trafficking of persons is one of utmost 
significance from which no nation is exempt. To facilitate our 
exploration of this issue we are fortunate to have a very impressive 
panel of witnesses. To each of them let me extend a warm welcome: 
Laurence E. Rothenberg, Deputy Assistant Attorney General, Office of 
Legal Policy, U.S. Department of Justice; Katya, from Detroit, 
Michigan; Anatasia Brown, Director of Refugee Programs, Migration and 
Refugee Services, U.S. Conference of Catholic Bishops; Bradley Myles, 
National Program Director, Polaris Project; Marcy Forman, Director, 
Office of Investigations, U.S. Immigration and Customs Enforcement; 
Florrie Burke, Safe Horizon, New York, New York; Dr. Amy Farrell, 
Institute on Race and Justice, Northeastern University; and Dorchen 
Leidholt, Director, Sanctuary for Families' Center for Battered Women's 
Legal Services. I look forward to your testimony and hope that it will 
lend guidance to this Committee on how we can most effectively address 
and eliminate this very serious human rights tragedy.
    Within the United States, we pride ourselves on overcoming the 
historic stain of slavery, and we are comforted by the thought that 
while others may persist in this repulsive practice, we do not. This 
however, is simply not the case. According to the GAO, ``as many as 
17,500 people are believed to be trafficked into the United States each 
year.'' The trafficking of persons is our problem because they are 
forced through our borders and used by our people. This extreme 
injustice can no longer go unnoticed.
    The United Nations Protocol defines human trafficking as the 
activities involved in obtaining or maintaining persons in compelled 
service:

        ``. . . the recruitment, transportation, transfer, harboring or 
        receipt of persons, by means of threat or use of force or other 
        forms of coercion, of abduction, of fraud, of deception, of the 
        abuse of power or of a position of vulnerability or of the 
        giving or receiving of payments or benefits to achieve the 
        consent of a person having control over another person, for the 
        purpose of exploitation. Exploitation shall include, at a 
        minimum, the exploitation of the prostitution of others or 
        other forms of sexual exploitation, forced labor or services, 
        slavery or practices similar to slavery, servitude or the 
        removal of organs.

    The flow of human trafficking is no surprise; traffic flows from 
the less industrialized countries to the more industrialized countries. 
This fact makes the issue of human trafficking a problem for all 
nations alike on a political, social, and moral level. The U.S. 
Department of State estimates that 800,000 people are trafficked across 
national borders every year, in addition to the reported millions of 
people trafficked within their own countries. The trafficking industry 
generates billions of dollars annually, and, together with drugs and 
weapons, is now a leading source of profits for organized crime. 
According to most analyst, the largest number of victims trafficked 
internationally come from Asia, though significant numbers of women and 
girls trafficked to work in the commercial sex industry come from the 
former Soviet Union and southeastern Europe.
    One subset of trafficking, and one of particular interest to the 
United States, is trafficking for forced labor, which the International 
Labor Organization defines as ``any situation in which work is carried 
out involuntarily under the menace of a penalty.'' The ILO estimates 
that some 12.3 million people have been the victims of forced labor, 
with agriculture, construction, domestic service, restaurants, and 
manufacturing sectors being the most prominent industries into which 
forced labor is trafficked.
    Under HR 3887, victims brought into the country by the government 
for investigations or as witnesses will be able to receive the T-visa, 
as opposed to only those who are found here. The bill also allows 
access to the T-visa for who are unable to participate with law 
enforcement because of the trauma experienced by the applicant, and 
eliminates the onerous standard that they demonstrate that they would 
suffer ``unusual and severe harm'' if they were returned home. The bill 
also will allow parents and siblings who are in danger of retaliation 
to travel to join the trafficking victim.
    In March of this year, the Committee on Homeland Security, on which 
I am a senior Member and I serve as Chairwoman of a subcommittee, held 
a hearing on the crossing of borders and victims of trafficking which 
produced a meaningful discourse on horrific implications of the 
trafficking of persons and sought to address said issues. However, 7 
months later, the issue is not resolved. The current policy of the 
United States, under the Trafficking Victims Prevention Act of 2000, 
allows the government to support many types of anti-trafficking 
domestically and overseas. However, much more must be done. The GAO 
currently reports that, while the government allocated funds to combat 
trafficking, there was an over-emphasis by the government on sex 
slavery, which came at a price for the majority of others who are a 
victim of human trafficking.
    Reliable information and independent evaluations of the success of 
the United States in combating this human atrocity have been hard to 
come by. While the State Department points to progress by citing the 
increase of countries with anti-trafficking initiatives and an increase 
in the number of arrests and convictions for human traffickers, the GAO 
report cites a less optimistic reality. The U.S. government has yet to 
develop a coordinated, inter-agency response to combat trafficking 
overseas or a systematic way to evaluate the effectiveness of its anti-
trafficking policies. In addition, a July 2007 GAO report entitled 
``Monitoring and Evaluation of International Projects are Limited, but 
Experts Suggest Improvements,'' found that monitoring mechanisms are 
lacking in U.S.-funded international projects, and that the U.S. and 
international organizations have encountered difficulties collaborating 
with host governments that often lack the resources, capacity, and/or 
political will to address trafficking.
    Given the very real and persistent nature of the crime of human 
trafficking, it is our responsibility as Members of the Congress of the 
most powerful nation in the world to address and resolve this atrocity 
once and for all. Nearly 150 years after our great country abolished 
slavery at home, it is our job to once again be a beacon of progress 
and hope and no longer allow one man to profit from the suffering of 
another.
    In the past ten years, we as a nation have made significant strides 
forward. In 1998, the Civil Rights Division under Attorney General 
Janet Reno convened the National Worker Exploitation Task Force, which 
sought to increase prosecutions and update anti-slavery tools to create 
a victim-centered approach to combating slavery. The Trafficking Victim 
Protections Act (TVPA) of 2000 modernized the involuntary servitude 
statutes, provided increased victim protections, and created mechanisms 
to assist and encourage other nations to join us in combating this 
serious problem. This legislation's ``3 P Approach'' of Prevention, 
Protection, and Prosecution is visible in the United Nations 
Trafficking Protocol signed in late 2000, and ratified by the United in 
December 2005.
    Under the TVPA, new criminal laws were established, allowing 
prosecutions in cases involving psychological coercion and document 
confiscation. These laws undo damage done in 1988 by the Supreme Court 
case United States v. Kozminski, which rejected psychological coercion, 
and narrowed the definition of servitude to cases involving force, 
threats of force, or threats of legal coercion.
    Last week, the Committee on Foreign Affairs, of which I am a 
Member, passed out of committee H.R. 3887, William Wilberforce 
Trafficking Victims Protection Reauthorization Act of 2007, of which I 
am proud to be a cosponsor. This legislation reauthorizes U.S. anti-
trafficking programs for four years, refines the requirements and 
programs contained in the original TVPA, adds additional protections 
against trafficking in the United States, and includes provisions to 
end the use of child soldiers.
    I look forward to the testimony of our distinguished panel and hope 
to continue to work on this issue until it is finally resolved forever 
and all of mankind is free and treated with the dignity, respect, and 
equality they deserve.
    Thank you Mr. Chairman, I yield the balance of my time.

                                <F-dash>

 Prepared Statement of the Honorable Darrell Issa, a Representative in 
  Congress from the State of California, and Member, Committee on the 
                               Judiciary

    Thank you, Mr. Chairman. I appreciate your holding this important 
hearing. I have long been active in fighting the occurrence of human 
smuggling in Southern California, and the harms caused by the separate 
and distinct crime of human trafficking are similar and equally 
egregious.
    It is difficult to imagine what victims of human trafficking 
experience, be it in forced prostitution or other forms of labor. To 
say such treatment is degrading only touches the surface of the horror 
human trafficking victims face, as our witnesses have described. We 
were right to pass the ``Trafficking Victims Protection Act'' in 2000 
in an effort to prevent human trafficking, strongly punish human 
traffickers, and protect victims of human trafficking.
    I commend the Majority for introducing H.R. 3887, the ``William 
Wilberforce Trafficking Victims Protection Reauthorization Act of 
2007.'' The programs authorized under the original act are important 
and should be continued.
    What I do not understand is why the Majority weakens many of the 
criminal provisions enacted by the 2000 act. For example, one provision 
of H.R. 3887 adds several intent requirements for human trafficking 
prosecution, and another provision decreases the penalties for 
trafficking for the purposes of forced labor from 5 years to 1 to 5 
years. It seems to me that decreasing penalties does nothing to 
discourage the underlying crime, but does make it less dangerous to 
commit the crime.
    As this process continues, I look forward to working with my 
colleagues in addressing these and other issues and ensuring that we 
are able to support a reauthorization that both protects human 
trafficking victims and punishes their traffickers.

                                <F-dash>

    Letter from the Honorable Laurence Rothenberg, Deputy Assistant 
 Attorney General, Office of Legal Policy, U.S. Department of Justice, 
    to the Honorable John Conyers, Jr., Chairman, Committee on the 
                               Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
